<html>
<title> - BACK ON TRACK: WMATA RED LINE METRORAIL ACCIDENT AND CONTINUAL FUNDING CHALLENGES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
BACK ON TRACK: WMATA RED LINE METRORAIL ACCIDENT AND CONTINUAL FUNDING 
                               CHALLENGES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2009

                               __________

                           Serial No. 111-16

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
52-712                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      LYNN A. WESTMORELAND, Georgia
JIM COOPER, Tennessee                PATRICK T. McHENRY, North Carolina
GERRY E. CONNOLLY, Virginia          BRIAN P. BILBRAY, California
MIKE QUIGLEY, Illinois               JIM JORDAN, Ohio
MARCY KAPTUR, Ohio                   JEFF FLAKE, Arizona
ELEANOR HOLMES NORTON, District of   JEFF FORTENBERRY, Nebraska
    Columbia                         JASON CHAFFETZ, Utah
PATRICK J. KENNEDY, Rhode Island     AARON SCHOCK, Illinois
DANNY K. DAVIS, Illinois             ------ ------
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

               STEPHEN F. LYNCH, Massachusetts, Chairman
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         JOHN M. McHUGH, New York
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
ELIJAH E. CUMMINGS, Maryland         BRIAN P. BILBRAY, California
DENNIS J. KUCINICH, Ohio
WM. LACY CLAY, Missouri
GERALD E. CONNOLLY, Virginia
                     William Miles, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 14, 2009....................................     1
Statement of:
    Davis, Hon. Tom, III, a former Representative in Congress 
      from the State of Virginia; Jackie Jeter, president, 
      Amalgamated Transit Union, Local 689; and William Millar, 
      president, American Public Transportation Association......    16
        Davis, Hon. Tom, III.....................................    16
        Jeter, Jackie............................................    22
        Millar, William..........................................    31
    Graham, Councilmember Jim, chairman, Board of Directors, 
      Washington Metropolitan Area Transit Authority; John B. 
      Catoe, general manager, Washington Metropolitan Area 
      Transit Authority; Deborah A.P. Hersman, member, National 
      Transportation Safety Board; Peter M. Rogoff, 
      administrator, Federal Transit Administration; and Eric 
      Madison, chairman, Tri-State Oversight Committee...........    58
        Catoe, John B............................................    63
        Graham, Jim..............................................    58
        Hersman, Deborah A.P.....................................    77
        Madison, Eric............................................    91
        Rogoff, Peter M..........................................    84
    Tuite, Patrick, eye witness and Metrorail Train 112 rider....    47
Letters, statements, etc., submitted for the record by:
    Catoe, John B., general manager, Washington Metropolitan Area 
      Transit Authority, prepared statement of...................    65
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah, prepared statement of.......................   119
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............   123
    Davis, Hon. Tom, III, a former Representative in Congress 
      from the State of Virginia, prepared statement of..........    19
    Graham, Councilmember Jim, chairman, Board of Directors, 
      Washington Metropolitan Area Transit Authority, prepared 
      statement of...............................................    60
    Hersman, Deborah A.P., member, National Transportation Safety 
      Board, prepared statement of...............................    79
    Jeter, Jackie, president, Amalgamated Transit Union, Local 
      689, prepared statement of.................................    24
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts:
        Letter dated July 14, 2009...............................    14
        Prepared statement of....................................     7
        Prepared statement of the Washington Metro Area 
          Transportation Authority Riders' Advisory Council......     2
    Madison, Eric, chairman, Tri-State Oversight Committee, 
      prepared statement of......................................    93
    Millar, William, president, American Public Transportation 
      Association, prepared statement of.........................    33
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................   121
    Rogoff, Peter M., administrator, Federal Transit 
      Administration, prepared statement of......................    86
    Tuite, Patrick, eye witness and Metrorail Train 112 rider, 
      prepared statement of......................................    51


BACK ON TRACK: WMATA RED LINE METRORAIL ACCIDENT AND CONTINUAL FUNDING 
                               CHALLENGES

                              ----------                              


                         TUESDAY, JULY 14, 2009

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:12 p.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Norton, Cummings, Kucinich, 
Connolly, Chaffetz, Bilbray, and Issa.
    Also present: Representatives Van Hollen and Mica.
    Staff present: William Miles, staff director; Aisha 
Elkheshin, clerk; Jill Crissman, professional staff member; 
Margaret McDavid and Jill Henderson, detailees; Daniel Zeidman 
and Christina Severin, interns; Lawrence Brady, minority staff 
director; Dan Blankenburg, minority director of outreach and 
senior advisor; Adam Fromm, minority chief clerk and Member 
liaison; Tom Alexander, minority senior counsel; Christopher 
Bright, minority senior professional staff member; and Glenn 
Sanders, minority Defense fellow.
    Mr. Lynch. Good afternoon, everyone. I apologize for the 
brief delay in starting this hearing. The Subcommittee on the 
Federal Workforce, Postal Service, and the District of Columbia 
will now come to order.
    I welcome our ranking member, Jason Chaffetz, member of the 
subcommittee, all hearing witnesses, and all those in 
attendance.
    The Chair, ranking member, and the subcommittee members 
will each have 5 minutes to make opening statements, and all 
Members will have 3 days to submit statements for the record.
    At this time, I would like to ask unanimous consent that 
the testimony from the Washington Metro Area Transportation 
Authority Riders' Advisory Council be submitted for the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2712.001
    
    [GRAPHIC] [TIFF OMITTED] T2712.002
    
    [GRAPHIC] [TIFF OMITTED] T2712.003
    
    Mr. Lynch. I would also like to ask unanimous consent that 
Representative Chris Van Hollen be allowed to join us and to 
ask questions of witnesses appearing before us today.
    Hearing no objections, it is so ordered.
    Ladies and gentlemen, again, let me welcome you to the 
subcommittee's third District of Columbia-related oversight 
hearing, entitled, ``Back on Track: The Washington Metro Area 
Transit Authority Red Line Metrorail Accident and Continual 
Funding Challenges.''
    Before delving into the purpose of this afternoon's 
hearing, I would like to express this subcommittee's heartfelt 
sympathy, and that of all of our Members in Congress, for the 
victims of the Red Line Metrorail accident on Monday, June 22, 
2009, and for their families and friends. The tragic loss of 
life and the dozens of injuries make today's oversight hearing 
all that more important.
    As the Nation's capital area's most public transportation 
authority, WMATA provides services to a population of over 3\1/
2\ million people within a 1,500-square-mile area through 
Metrorail, Metrobus, and MetroAccess. And given the reliance of 
Metro not only for the local economy but also nationally, with 
an estimated 42 percent of our Federal employees commuting to 
work via Metro and millions of tourists depending on the system 
to get around, it is critically important that America's 
transit system be both dependable and safe.
    While, to their credit, the Washington Metro Area Transit 
Authority has at times certainly exhibited great qualities over 
its 33-year history, last month's accident points to the fact 
that there still remains room for improvement in terms of 
ensuring that the highest standards of safety exist for Metro 
riders and employees.
    Additionally, the June Red Line Metrorail accident also 
reignited the debate over the state of WMATA's financial 
condition and the impact that the authority's funding 
challenges has on such issues as deferred maintenance, capital 
enhancement projects, and WMATA's ability to upgrade and 
replace aging equipment and railcars. Thus, it is the intent of 
the subcommittee that today's hearing also be used to reexamine 
and discuss WMATA's financial condition and its effect on 
safety, reliability, and dependability.
    I must also say that I am happy to learn that funds have 
been provided in the fiscal year 2010 Transportation-HUD 
Appropriations bill marked up yesterday. Although it has only 
been a little over 2 months since the subcommittee's last 
oversight hearing on WMATA, the events of the past month have 
obviously necessitated a need for this panel to reassess and 
explore a host of issues relating to WMATA's services and 
operations, which are indispensable to the region and to the 
Federal Government.
    While today's hearing certainly won't bring a final 
resolution as to the cause or leading factors of the recent 
accident, given the various ongoing investigations, the hearing 
is meant to continue the dialog between WMATA and its regional 
partners and the various Federal Government oversight entities 
on the specific issue of system safety and to learn what is 
being done now to prevent, as best as possible, another fatal 
accident from occurring in the future.
    I would like to thank today's witnesses for joining us as 
we discuss this important matter. I look forward to your 
testimony.
    And I now yield to our ranking member, Jason Chaffetz, the 
gentleman from Utah, for 5 minutes.
    [The prepared statement of Hon. Stephen F. Lynch follows:]

    [GRAPHIC] [TIFF OMITTED] T2712.004
    
    [GRAPHIC] [TIFF OMITTED] T2712.005
    
    Mr. Chaffetz. Thank you, Chairman Lynch. I appreciate you 
holding this hearing and participation today.
    On April 29th, we held an oversight hearing on the 
Washington Metropolitan Area Transit Authority. At that 
hearing, we examined Metro's financial condition and internal 
controls, along with safety and security issues.
    On June 22, 2009, a tragic accident, the most serious in 
Metro's history, occurred on the Red Line. One train crashed 
into the back of another, killing 9 and injuring 80. In 
addition to the dead and injured, damage to the morale of 
Metro's riders and its workers and to Metro's reputation as a 
whole is ongoing. A recent Washington Post editorial commented 
on the crash as having, ``shattered many riders' assumptions 
about the safety of the system.''
    Today's oversight hearing will examine that accident and 
continuing challenges faced by Metro. Metro appears to be in 
the throws of an epic crisis. As a Member of Congress and as a 
Metro user myself, I am very concerned about the direction.
    Even before the catastrophe of June 22nd, a Washington Post 
story described comments from the Metro riders as revealing, 
``a band of beaten down and frustrated people who, despite 
their close kinship with Metro, have had about enough.''
    In the wake of the June 22nd crash, a more recent story 
reflected growing concerns about extensively cramped 
conditions, long commutes, jerky rides, abrupt stops, and 
passengers waiting for more than three full trains to pass 
before boarding. There is also evidence of nerves rubbed raw 
and some reports of yelling and shoving along the way.
    While investigations are continuing, there are deeply 
disturbing reports of track circuit problems which should have 
been anticipated and which have been dealt with in other 
systems, notably the Bay Area Rapid Transit system in San 
Francisco. Metro apparently never installed a backup system 
that is used by BART.
    A significant segment of the Federal work force relies on 
the Metro, plus millions of visitors each year. We are also 
quite aware of the enhanced security issues which apply to the 
Metro because it services the Washington region.
    The last Congress approved a measure sponsored by the 
former chairman of our committee, Tom Davis, who I am pleased 
to see is one of our witnesses today. That law authorizes much-
needed funds and mandates management assistance, but follow-
through by the administration and this Congress is required to 
make that law a reality.
    I look forward to hearing from the witnesses today. And let 
me just say, on a personal note, our heartfelt thoughts and 
prayers with those who were injured and killed on the Metro. It 
is devastating anytime you see that. I think that is the 
importance of the hearing today.
    I look forward to the participation here. We want to make 
sure that we are implementing the best practices. I think 
individually--let's break it up--everybody's heart is in the 
right direction. But if the management is not there to 
coordinate and move it forward in a cohesive manner, I think 
that is where this committee needs to be involved.
    I have my Metro card. I like riding it. I enjoy it. But 
there are also challenges. There are times and things and 
frustrations that I think are appropriate for us to dive into. 
And so, Mr. Chairman, I thank you for holding this hearing. I 
look forward to the dialog, from hearing from our witnesses, 
and a better understanding of what is happening or what is not 
happening with the Metro today.
    And, with that, I will yield back.
    Mr. Lynch. I thank the gentleman.
    Before we continue with opening statements, I would invite 
our first panel to come forward and be seated.
    The Chair now recognizes the gentlelady from the District 
of Columbia, Ms. Holmes Norton, for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I want to once again thank Chairman Stephen Lynch for his 
attention to Metro by responding to my request early in his 
tenure as the new Chair of this subcommittee with a hearing on 
April 24th, and again today granting my request for this 
hearing in light of the June 22nd Metro tragedy.
    I had spoken with the appropriate Metro and National 
Transportation Safety Board officials concerning this hearing 
before the investigation is completed and learned that it is 
not unusual to be asked to testify before an investigation is 
fully completed. The investigation of this collision may 
require well in excess of a year or even more.
    Following our hearing in April, we had every reason to 
believe that the Metro system was a safe system. And, because 
of the consistent oversight of this subcommittee, I continue to 
believe that the system that serves this region and millions of 
visitors is safe. I would not hesitate to board a Metro train 
even after the tragedy of June 22nd.
    However, the public is not fully aware of what this 
subcommittee has learned during years of consistent oversight 
about the overall safety of the system. And, in any case, the 
public deserves to know much more about this recent 
catastrophe. It is fair for riders to seek reassurance now or 
to know whether there is reason to be concerned about the daily 
trip on a Metro train. The public has bits and pieces of 
information about what may have caused the accident and what is 
being done now to assure its safety. Today's hearing, however, 
will make public all that is known now, as Congress opens its 
own investigation and will allow the public to separate urban 
legend from authoritative facts and eyewitness testimony.
    Long before the June 22nd accident, the regional 
congressional delegation had been working to secure funds for 
Metro for capital costs, such as replacement of Metro trains 
burdened by increasing numbers of Federal and congressional 
employees, among others; actually subsidized by the Federal 
Government in order to encourage employees to take Metro, who 
form the majority of Metro's weekday employees.
    Today, the region is particularly grateful to 
Transportation and Housing and Urban Development Appropriations 
Chair John Olver for finding the funds in his appropriation for 
the first $150 million installment and the $1.5 billion 
Congress authorized for a 10-year period.
    Regrettably, despite our efforts over several years, 
funding was not authorized until 2008, when control changed in 
the Congress. But we particularly appreciate the efforts of the 
former Chair of the full committee, Tom Davis, who started us 
down the road to today's funding. And we are happy to have him 
testify today.
    The necessary funds also were not included in the 
President's budget, despite constant urging from the regional 
delegation. But Chairman Olver found the funds to meet this 
year's commitment. And I know that millions of public and 
private employees and residents are deeply grateful to him and 
to the subcommittee.
    I have just come, Mr. Chairman, from managing a floor 
resolution recognizing those who were injured and remembering 
residents we lost in this tragedy: seven from the District of 
Columbia, one from Maryland, and another from Virginia.
    We do not have a response that can console the losses of 
the victims and their families and those who were injured. 
However, we can begin with today's hearing and the first 
appropriation for Metro under our bill to demonstrate to all 
the families, friends, and associates, and to current riders 
that this tragedy has already had immediate effects for 
assuring the safety of our transportation system.
    May I thank you again, Mr. Chairman, for your consistent 
attention to this system.
    Mr. Lynch. I thank the gentlelady.
    I would now like to ask unanimous consent to allow Mr. Mica 
from Florida, who I am told was a past chairman of this 
subcommittee, to allow him to join the panel and in today's 
discussion, as well.
    Hearing no objection, so ordered.
    At this time, I would like to recognize Mr. Mica from 
Florida for 5 minutes.
    Mr. Mica. Well, thank you. And thank you for yielding.
    And while I am on the full committee, I am no longer a 
member of this subcommittee, and I am pleased to be here to 
discuss an important topic. I also am the Republican ranking 
member of the full Transportation and Infrastructure Committee. 
And Ms. Norton and I also serve on that committee today. In 
that capacity, I did want to make some remarks.
    And, first of all, I want to join others in expressing our 
sympathy to those that lost loved ones in the tragedy of the 
Metro crash. We don't know all of the details. I know NTSB is 
investigating. But, again, our heartfelt sympathy to those who 
lost loved ones or had family members injured in that tragedy.
    And it is our important responsibility on this 
subcommittee, an investigative committee of Congress, and I 
applaud you for holding this hearing. I think it is very 
important that not just the Transportation Committee but an 
investigative committee take action, like you are doing here 
today.
    It has been reported that the automatic train control 
system failed to detect a train waiting on the track. If the 
system had been working properly, possibly, again, the crash 
could have been avoided. NTSB will really investigate the crash 
and let us know.
    However, we do know that other transit systems around the 
country rely on automatic train control systems, including San 
Francisco, Boston, Baltimore, Atlanta, Philadelphia, and, in my 
State, Miami.
    Last year, Congress and a lot of us worked on it together. 
We passed an Amtrak rail passenger, rail safety bill. And in 
that legislation, Congress required that within the next 6 
years commuter rail trains, inner-city passenger trains, and 
freight trains carrying hazardous materials install similar 
positive train control systems. We have to learn lessons from 
tragedies like the one we have experienced here in the 
Washington community for rail safety around the country.
    I do want to note for the record that, 3 years ago, the 
Highway and Transit Subcommittee held an oversight hearing on 
transit safety. And, at that hearing, the Government 
Accountability Office made a number of findings and argued for 
a more robust safety oversight program.
    Unlike aviation, railroads, including commuter railroads, 
transit safety oversight is handled at the local level by State 
safety oversight agencies. This is because the Federal Transit 
Administration is a grantmaking agency; it is not a regulatory 
body.
    Each rail transit system is different and has unique system 
specifications. The transit agency develops a system safety 
plan for each transit system. And the State's safety oversight 
agency directly oversees the safety of the transit system by 
reviewing safety plans, performing audits, and investigating 
accidents.
    Some of you may not know this, but FTA currently does not 
permit expenditure of funds to support those safety offices and 
officers who have that responsibility. I am sending and some 
Members have already joined me in sending this letter to the 
FTA Administer today. And it is as follows. Let me paraphrase 
it here.
    We understand that the Federal Transit Administration 
administrative policy prohibits transit agencies from using 
their Federal grant dollars to support expenses of the State 
safety offices that directly oversee the safety of transit 
systems. Again, according to a GAO report from our committee, 
these State safety offices are often inadequately funded and 
staffed. I think in Washington Metro, up until about a year 
ago, they had about one position; now they have two. And, 
again, they are prohibited from taking these Federal dollars. 
And it is not by law, it is by policy.
    However, given what occurred last year with, I guess, the 
Boston Green Line and also with the Washington Metro system 
recently, we feel it is important that these safety offices be 
strengthened. So we recommend in this letter here that the 
Federal Transit Administration work with us to provide those 
agencies, again, the flexibility to utilize some of the 
dollars, maybe a small percentage, for some of these important 
positions.
    So I will be asking other Members to sign this and send 
this.
    And I think that the final concern that I have here, 
Members, is that Mr. Oberstar and I have been trying to get a 
major highway and transit bill passed. The current one we 
operate under expires in just a few months, at the end of 
September. The administration has now said, while we are in the 
process of drafting this thing, sort of dropped a bomb on us 
and said, let's extend this for 18 months.
    What will happen is all of these safety projects, all of 
our transportation projects, our major transit projects and 
major highway and infrastructure projects will be put on hold 
for 2 years. And if we wanted to mandate changes by law, we 
would have a tough time doing so.
    So I urge everyone to work with Mr. Oberstar and myself to 
try to move that legislation forward. I urge Members to sign 
this letter, because we don't need legislation to get FTA to do 
what they should be doing, is allowing more flexibility and the 
use of these Federal funds for safety oversight purposes.
    Thank you so much for the courtesy extended me, Mr. 
Chairman.
    Mr. Lynch. Would the gentleman like to have the letter 
added into the record?
    Mr. Mica. I would. And I appreciate it. And I will also ask 
other Members to sign. Thank you so much. I ask unanimous 
consent.
    Mr. Lynch. OK. I ask unanimous consent that the gentleman's 
letter be entered into the record.
    Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2712.006
    
    Mr. Lynch. The Chair now recognizes the gentleman from 
California, Mr. Issa, for 5 minutes.
    Mr. Issa. Thank you, Mr. Chairman. And I ask unanimous 
consent that my full opening statement be placed in the record.
    Mr. Lynch. Without objection, so ordered.
    Mr. Issa. Mr. Chairman, we are honored today, as 
Congresswoman Norton said, to have Mr. Davis here. Mr. Davis, 
when he was Chairman Davis, championed the Metro system and 
continued to do so until his departure last year. As I will 
predict, Congressman Davis would rightfully so say, ``If you 
can't get it right in D.C., you can't get it right in public 
trains around the country.''
    There is a proposal in the stimulus package just passed a 
few months ago to put a mag-lift type of train, a high-speed, 
200-mile-an-hour train between Orange County and Las Vegas. It 
is pretty clear that we have fundamental problems with going 59 
miles an hour with absolute safety in Washington, DC.
    Here, today, we are going to hear about how the accident 
happened, how it won't happen again. But, more importantly, I 
think this is an opportunity for us to look at a 30-plus-year-
old system, since 1973 when the whole Metro system began being 
rolled together, and say, have we done all that we can do?
    I know that Chairman Davis did all he could do on his 
watch. But I do believe that Washington, DC, a compact city 
with a large ridership that comes in to Federal systems or in 
and around the city every day, commuters who, by both their own 
choice and by incentives from the Federal Government, 
essentially in most cases free passes, want to use this system 
and want it to be 100 percent safe and 100 percent reliable.
    Mr. Chairman, I believe that we, as a committee, have a 
special obligation to look at this system. But I believe that 
what we get right in this system, including the full funding of 
all the safety requirements, in fact is essential for all 
systems around the country.
    And I, like many people--everyone has a solution when they 
come after a tragedy like this. I might strongly suggest to 
this committee that we bear in mind that there are billions of 
unspent stimulus dollars that are, in fact, earmarked for train 
transportation that will not be spent in the near future and 
might very well still be redirectable to meet the needs of 
getting the Metro system both safe and reliable at the level 
that we believed we were at and believe we should be at.
    I look forward to hearing our panel. And I thank the 
chairman for holding this important hearing, and yield back.
    Mr. Lynch. I thank the gentleman.
    Before we swear our witnesses, I want to ask, if Mr. Tuite 
is here, come forward.
    Mr. Tuite was an eyewitness on the day of the accident. We 
will entertain him when he does arrive.
    It is the custom in this subcommittee to swear witnesses 
who are to testify. May I ask you all to stand and raise your 
right hands?
    [Witnesses sworn.]
    Mr. Lynch. Let the record reflect that all of the witnesses 
have answered in the affirmative, with the absence of Mr. 
Tuite, who will be sworn when he arrives.
    And your entire statement will be included in the record.
    Mr. Davis, I am sure you don't need to be instructed in 
this matter, but the green light indicates that each witness 
has 5 minutes to summarize your statement. The yellow light 
means you have 1 minute remaining to complete your statement. 
And the red light indicates that your time for speaking has 
expired.
    Originally, I had offered the courtesy to Mr. Connolly to 
introduce Mr. Davis. And here he is. Perfect.
    Mr. Issa. Gerry, you are a little late. We were just about 
to give your seat away.
    Mr. Lynch. The gentleman is right on time, as always.
    The Chair would now like to recognize the gentleman from 
northern Virginia, Mr. Connolly, for the purposes of 
introducing Mr. Davis.
    Mr. Connolly. Thank you, Mr. Chairman. And thank you, as 
ever, for your graciousness.
    It is a great privilege for me to sit up here and welcome 
back to this committee our distinguished former chairman, Tom 
Davis.
    Tom Davis and I have followed in each other's footsteps. He 
was a longtime member of the Board of Supervisors of Fairfax 
County, then became the chairman of Fairfax County, and then 
took this congressional seat. I also was a longtime member of 
the Fairfax County Board of Supervisors, succeeded Tom as 
chairman, and then of course succeeded him in this seat.
    Tom has been a friend and mentor. He has shown bipartisan 
inclinations that are deeply appreciated. And I want to say 
personally, in my transition to this job, Tom Davis could not 
have been more gracious and more generous, he and his staff.
    And I just want to thank him and thank him for his 
leadership on Metro. Without Tom's visions, this Congress would 
never have come up with the idea of a $150 million matching 
grant to the localities putting up capital money for Metro.
    As the tragedy of June 22nd underscored, Metro is starved 
for capital investment. And the Federal Government bears some 
responsibility, as do the localities, in trying to address that 
investment shortage. And, again, I salute my predecessor, Tom 
Davis, for his understanding of that issue, his vision for what 
had to be done, and his willingness to make sure that this 
Congress lives up to that obligation.
    Welcome back, Tom.

 STATEMENTS OF HON. TOM DAVIS III, A FORMER REPRESENTATIVE IN 
 CONGRESS FROM THE STATE OF VIRGINIA; JACKIE JETER, PRESIDENT, 
   AMALGAMATED TRANSIT UNION, LOCAL 689; AND WILLIAM MILLAR, 
     PRESIDENT, AMERICAN PUBLIC TRANSPORTATION ASSOCIATION

                STATEMENT OF HON. TOM DAVIS III

    Mr. Davis. Thank you very much. Thank you, Representative 
Connolly, in your continued commitment to public service. We 
have fought a lot of battles, usually together, not always, as 
local politics go.
    Chairman Lynch, thank you for calling this hearing. It is 
timely, it is important.
    Let me thank Ms. Norton, Mr. Issa, who helped us pass this 
legislation first in 2006 and then in 2008, and we finally got 
it through the Senate and into law.
    And to Ranking Member Chaffetz, it is nice to see you 
again, and thank you for your leadership, as well.
    We saw early on, with GAO reports, that Metro has a $6 
billion shortfall in terms of its capital funding need, and 
there was no way that this could have been raised within the 
existing system. Fares would not have supported it.
    So the legislation simply bit off part of that, $3 billion: 
$1.5 billion paid for by the Federal Government over 10 years; 
$1.5 billion in matching funds--dedicated matching funds from 
localities. Prior to the legislation, there was no dedicated 
funding. Metro got what it got on an annual basis. And when 
local governments cut their budget, Metro suffered as a result.
    This has put, I think, a needed discipline on local 
governments to get the match. And I was just thrilled to hear 
that Chairman Olver put in the $150 million last night in the 
transportation appropriation bill. This is a precedent for the 
next 10 years that I think will go a long way toward making the 
Metro system safer and stronger.
    I also want to offer my condolences to the friends and the 
families of the nine Metro passengers who were tragically lost 
in last month's crash. And for those that are injured, I wish 
them a speedy recovery.
    You know, as policymakers, like it or not, we bear some 
responsibility in funding and some of the shortfalls the system 
has had over time. And I think, if anything else, we want to 
learn from this. We don't want this to happen again.
    So let me go briefly over what the legislation called for 
and what remains to be done and how we can continue to make 
this a safer and a better system here in the Nation's subway 
system.
    First of all, the Congress, last night, put in $150 million 
for the fiscal year. The localities have already come up with 
their match. An independent IG was established under the 
legislation so that Metro--it wouldn't be looking at itself. 
You would have an independent inspector general, which we think 
helps their operations and keeps them on their toes, something 
that I think was overdue. Metro actually--we introduced the 
legislation. Metro actually acted on their own to establish 
this, but the legislation mandates it.
    Finally, Federal representation on the Metro board was an 
important concept, and that has not taken place yet. It hasn't 
taken place because Congress has not adopted the changes to the 
Metro compact. Representative Hoyer has pending legislation 
that will do that. All three of the States have amended the 
Metro compact through their State legislatures and city 
counsels. Now the Federal Government has to do it, and I think 
as quickly as possible so the President can appoint two Federal 
members to the Metro board.
    Now, why is this important? It is important because, 
although Virginia and Maryland and the District have 
representatives on this subway system, the natural tendency--
and I have been in local government for 15 years before I came 
here--is to be rather provincial in terms of how you look at 
the system. Is it good for Maryland? Is it good for Virginia? 
Is it good for stations in my district? Having that Federal 
representation on there, that Federal expertise, I think will 
add a level, if you will, of maturity and a level of analysis 
that I think will be helpful to this system. The President has 
to make good appointees, but I think we can count on them to do 
that. So that has to happen, as well.
    The legislation also expanded wireless service on the Metro 
system. Prior to this, it was reserved for one operator. This 
expands it. We think this is helpful, particularly in cases of 
accidents and crime.
    Finally, let me say that I think the NTSB has identified 
some improvements that need to be worked on immediately: this 
new signaling system, monitoring and tracking systems. I think 
there is stimulus money available. It would be helpful if the 
Congress pushed to get a slug of money up there, right there, 
to make these changes right away so that the kind of tragedy 
that happened on June 22nd will not happen again and we can 
make those changes.
    Other than that, I want to thank the Members up here in the 
House for being so supportive of Metro over the years. It was 
the Senate that held the legislation up for 4 years. And you 
all have been great to work with.
    Thank you.
    [The prepared statement of Hon. Tom Davis III follows:]

    [GRAPHIC] [TIFF OMITTED] T2712.007
    
    [GRAPHIC] [TIFF OMITTED] T2712.008
    
    [GRAPHIC] [TIFF OMITTED] T2712.009
    
    Mr. Lynch. I thank the gentleman.
    And I want to add to Mr. Connolly's remarks about you, Mr. 
Davis, and how, as chairman of this committee, you were very 
fair and bipartisan and provided a great example, I think, of 
strong leadership in the Congress during your time here.
    At this point, I would like to introduce Ms. Jackie Jeter. 
She is the president of the Amalgamated Transit Union, Local 
689. Ms. Jeter began her career with the Transit Authority as a 
part-time bus operator in 1979 and has worked as a full-time 
bus operator, train operator, and interlocking operator. Ms. 
Jeter is a member of today's women's caucus of Local 689 and 
has the distinction of being the first female assistant 
business agent of Local 689.
    And I also want to express my heartfelt sympathies for you 
and your members. I know you lost a valued member of your local 
union, Local 689, in Jeanice McMillan on the day of this 
accident. And we understand that her conduct at the time of 
this accident, in slowing the train down, may have saved lives, 
in terms of her own action here.
    But, again, we thank you for your attendance here. And you 
are now recognized for 5 minutes for an opening statement.

                   STATEMENT OF JACKIE JETER

    Ms. Jeter. Thank you, Mr. Chairman. Good afternoon, Mr. 
Chairman, ladies and gentlemen of the committee. It is my honor 
to serve as a witness before you today.
    As a rail operator of 22 years and as president of the 
Amalgamated Transit Union, Local 689, I am deeply and 
personally affected by the tragic WMATA rail accident of June 
22nd. I join my union members and others to urge swift 
corrective actions.
    We stand ready to help find solutions, improvements, and 
technological advancements capable of advancing the problems of 
the aging WMATA system. I firmly believe that we cannot afford 
to spend time on expensive studies and multiple meetings, but 
must instead move into implementation mode without further 
delay.
    When the National Transportation Safety Board's report from 
its investigation into the June 22nd accident is in hand, we 
will have a much better idea of what went wrong and how to 
resolve those problems. I urge the committee to be cautious 
about drawing any conclusions from this hearing. I believe that 
it would be premature to publicly conjecture about the causes 
of the crash.
    I also call on WMATA and the NTSB to be transparent in 
their investigation for the sake of the workers, the public, 
and policymakers.
    Local 689's motto is ``We Make It Work.'' Jeanice McMillan, 
the operator killed in the crash, embodied that spirit. Her 
actions epitomized the heroism sometimes required of our 
members.
    Safety is the No. 1 priority of Local 689. It is what we 
work hard to deliver every day to every rider on the buses and 
trains. As president of the workers union, one of my primary 
goals is to ensure that every worker receives appropriate 
safety measures and training from WMATA.
    While we do not yet know the exact causes of the accident, 
there were troubling patterns of WMATA's responses to previous 
NTSB recommendations. Since the first fatal accident on WMATA 
in 1982, the NTSB has recommended installing car-borne monitors 
in every WMATA car to provide advanced performance data for 
every department. None of the 1000-series cars in the system 
are so equipped, including those involved in the accident.
    After the 1996 Shady Grove accident, the NTSB recommended 
WMATA evaluate all series of Metrorail cars with respect to 
resisting car body telescoping and providing better passenger 
protection, and make the necessary modifications.
    After the 2004 Woodley Park accident, the NTSB made a 
specific recommendation to either retire or retrofit the Rohr-
built 1000-series cars based on their crash worthiness. WMATA 
again failed to comply with these recommendations, citing costs 
and binding lease agreements through 2014.
    The NTSB made an urgent recommendation to include specific 
instructions when responding to rollback situations, and WMATA 
responded that it would not address the issue. The 
recommendation was left as ``open, unacceptable response,'' in 
the NTSB reports.
    It is unfortunate that the NTSB can do little more than 
make recommendations based on these findings. It has no power 
as an agency to enforce any of its own suggestions. 
Furthermore, there is no independent body with oversight of 
WMATA other than Congress.
    Over the years, Local 689's leadership has continually made 
suggestions to WMATA for procedural and equipment changes. 
WMATA is allowed to choose, ignore, defer recommendations until 
it deems the time ripe for implementation. Safety should not 
fall victim to fiscal constraints or internal priorities. Any 
legislation for the WMATA system should include regulations, 
enforcement, and oversight.
    WMATA is heavily constrained by its funding--and I see that 
my time is running out--and I believe that funding is important 
for WMATA. We need dollars. It is an aging infrastructure, and 
in order to make that infrastructure work for the members of 
Local 689 and all of the employees of WMATA, we have to put the 
money where this Nation wants it. If public transportation is 
something that we need--and we sorely need it; based on the 
economy itself, it has been proven that public transportation 
is needed--then we need to put the dollars where it is needed.
    And I thank you so much for this opportunity.
    [The prepared statement of Ms. Jeter follows:]

    [GRAPHIC] [TIFF OMITTED] T2712.010
    
    [GRAPHIC] [TIFF OMITTED] T2712.011
    
    [GRAPHIC] [TIFF OMITTED] T2712.012
    
    [GRAPHIC] [TIFF OMITTED] T2712.013
    
    [GRAPHIC] [TIFF OMITTED] T2712.014
    
    [GRAPHIC] [TIFF OMITTED] T2712.015
    
    [GRAPHIC] [TIFF OMITTED] T2712.016
    
    Mr. Lynch. I thank the gentlelady.
    Our next witness is Mr. William Millar, who joined the 
American Public Transportation Association in 1996 and has 
worked to increase Federal investments in public 
transportation.
    From 1973 to 1977, Mr. Millar worked for the Pennsylvania 
Department of Transportation, where he created Pennsylvania's 
free transit program for senior citizens. Mr. Millar also spent 
13 years as the executive director at the Port Authority of 
Allegheny County.
    Mr. Millar, you are recognized for 5 minutes.

                  STATEMENT OF WILLIAM MILLAR

    Mr. Millar. Thank you, Mr. Chairman. And let me thank you 
for holding these hearings today. And I appreciate very much 
the opportunity to be here on behalf of the public 
transportation industry.
    You know, when a terrible tragedy such as the one that is 
the subject of this hearing occurs, all of us certainly feel a 
great loss. We feel certainly great sympathy, and our prayers 
and our sympathies go out to the victims, to their families, to 
their loved ones. It is a tragedy like this that causes us to 
take a step back, to examine what we do, to see how we might 
improve the way we do things in order to prevent these types of 
accidents from happening.
    As others have already said, we do not yet know the exact 
causes, but that shouldn't stop us from taking prudent steps to 
move forward. And I know later in this hearing you will hear 
testimony from WMATA and others about steps that are being 
taken.
    Our association stands ready to support WMATA, this 
committee, and any other bodies involved here in trying to make 
our systems safer.
    Now, notwithstanding the terrible tragedy we are discussing 
today, Americans are using public transportation in modern 
record numbers. There are many reasons why Americans are using 
public transit, but there is one undeniable common thread: Tens 
of millions of customers rely on public transportation every 
day because our systems are fundamentally safe, but, as this 
terrible tragedy demonstrates, they can always and must be made 
safer.
    Years of proven performance records have instilled a 
confidence in the riding public that our systems will transport 
them safely. I continue to use Metrorail for my commute on a 
daily basis because it is a safe system and because the 
alternatives are much less safe.
    The U.S. Department of Transportation data shows that a 
person is 29 times safer when using heavy rail public 
transportation such as WMATA operates rather than taking the 
same trip in an automobile.
    Further, the congressionally created National Surface 
Transportation Revenue and Policy Study Commission indicated 
that highway travel accounts for over 94 percent of all 
fatalities and then 99 percent of all injuries on the Nation's 
surface transportation system.
    This data clearly indicates that the public's trust in 
public transportation is not misplaced. Public transit is one 
of the safest modes of transportation available.
    But, numbers and statistics aside, nothing is infallible. 
Therefore, APTA and its members remain vigilant in continuing 
our commitment to advancing transit safety and promoting the 
safety operation of rail transit systems.
    I have been asked to comment on several areas by the 
committee regarding safety standards and procedures in the 
industry. Please note, I am not speaking of WMATA specifically 
but rather presenting information generally about the industry, 
much of which would be applicable to WMATA.
    For decades, we have been the leading force in developing 
safety programs and standards for public transportation 
operations, maintenance, and procurement. In the 1980's, APTA 
was asked by the rail transit industry and FTA's predecessor, 
the Urban Mass Transportation Administration, to develop a 
standardized program for rail transit safety, which we 
established under the auspices of what was then known as the 
Rail Safety Review Board.
    APTA's commitment to safety was also the basis for our 
standards development program initiated in 1996, which 
currently include standards for rail transit, commuter rail, 
bus operations, procurement, intelligent communications 
interface, and security.
    Our organization has been designated as a standards 
development organization [SDO], by the U.S. Department of 
Transportation and is funded, in part, through grants from the 
Federal Transit Administration.
    Congress has also officially recognized the importance of 
promoting voluntary, industry-based standards as a way of 
creating uniformity within the legal and regulatory structure 
of the United States.
    My written testimony contains much more detail on the 
nature of these standards, the process that is used, and things 
of that sort.
    I do think it is important to realize we don't rely just on 
our own members or our own expertise. We involve many other 
organizations, such as the American Society of Mechanical 
Engineers, the Institute of Electrical and Electronic 
Engineers, the American Railway Engineering and Maintenance 
Association, and a host of others, as well as working with the 
Federal Transit Administration, the Federal Railroad 
Administration, the National Transportation Safety Board, and 
others in developing these standards.
    To date, we have published over 170 rail standards in 
categories applicable to heavy rail transit and such as those 
used by WMATA. The heavy rail crash worthiness standard 
developed by the American Society of Mechanical Engineers in 
corroboration with APTA is a good example, developed after some 
5 years of work at the professional level.
    Now, there is much more in my written comments. I 
appreciate I have exhausted my time here, and I would certainly 
look forward to answering any questions you might have. Thank 
you, sir.
    [The prepared statement of Mr. Millar follows:]

    [GRAPHIC] [TIFF OMITTED] T2712.017
    
    [GRAPHIC] [TIFF OMITTED] T2712.018
    
    [GRAPHIC] [TIFF OMITTED] T2712.019
    
    [GRAPHIC] [TIFF OMITTED] T2712.020
    
    Mr. Lynch. I thank the gentleman.
    I now yield myself 5 minutes.
    Let me just say that I know there are four or five Federal 
agencies that have shared responsibility here, and this has 
resulted in an inordinate amount of acronyms being used at this 
hearing. So I would just caution people to at least, before you 
use the acronym, just describe the full title of whatever that 
is you are referring to.
    And for those listening or watching at home, ``WMATA'' 
stands for Washington Metro Area Transit Authority. And so you 
will hear that constantly referred to. WMATA is the Metro. 
Easier to understand it in that sense.
    Let me ask, Ms. Jeter, you are in a unique position, I 
think. And I know we were introduced previously to Steve 
McDougall, who is the president of Local 589 in the Boston 
area. And we have had situations on the T in Boston with train 
collisions.
    Now, I understand where we are on the Metro. And I am a 
rider, as well; I am a commuter. I don't have a car down here, 
so I find myself on the Metro quite a bit. But there are two 
systems, and one is to have a manual operating system where the 
conductor actually operates the train manually, and then there 
is an automated system that is used.
    As I understand the circumstances of the most recent 
accident, Train 214, which was the first train in line, was 
being operated manually by that conductor, while the one that 
Ms. McMillan was operating, hers was on automatic.
    Ms. Jeter. Yes.
    Mr. Lynch. And the way it should have worked was that Ms. 
McMillan's train, 112, should have detected the train in front 
of her and should have automatically stopped the train or 
slowed it down. And, as I understand it, she visually made a 
report that there was a train ahead. So all the indications 
were that she recognized the threat but that, mechanically, the 
system did not work and it failed.
    When you have this seeming conflict--and I am not sure why 
the first train was manually operated. Maybe that was a 
decision by the conductor in that case. I understand those 
signals weren't operating in that area, or they were operating 
intermittently in that area. It may have been a decision on the 
part of the conductor just to switch to manual operation. I am 
not sure.
    But where you have this conflict, is there a way to safely 
resolve that? What are your own observations, having been in 
the seat yourself and being very, very familiar with the 
circumstances, for your conductors, for your employees? How 
best might we resolve that conflict between going in manual 
operation and automatic operation?
    Ms. Jeter. Well, Mr. Chairman, first of all, let me say 
that, under no circumstances, whether the train was in manual 
or in ATO, should it have happened. Safeguards are in place to 
protect that kind of accident from occurring whether you are in 
manual or in automatic.
    I think that the operators are trained to know when it is 
best for them to move up in a manual or switch from automatic 
to manual.
    And, also, from my experience and history as an operator, I 
have also seen where all you should have to do is let central 
know that you have encountered a problem. Once you let them 
know that you have encountered a problem, they know that manual 
operation is needed.
    I believe in the system. I believe in it wholeheartedly. I, 
like you, believe that it is a safe system, although it should 
be safer at this point. But I do know that, under no--and I 
hope I answered your question, because, under no circumstances, 
should it have occurred, period.
    Mr. Lynch. I thank you.
    And I now yield to the ranking member, Mr. Chaffetz from 
Utah, for 5 minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    Congressman Davis, if you could expand a little bit about 
the funding itself, what would happen if the funding were not 
to go forward, from your perspective and history?
    And then the second part of that question is, is the 
funding alone going to solve the problem, or are there other 
challenges that you see above and beyond just the funding, lack 
of funding?
    Mr. Davis. Money doesn't always solve problems by itself. 
That is why we put the independent IG into this legislation and 
Federal representation. We thought all of these would enhance 
oversight over the system, to help it being spent correctly 
along the way.
    The history of this is it came under the old District of 
Columbia Committee. Every other transit in the country came 
under the Transportation Committee, Transportation and 
Infrastructure [T&I]. But this came under the old D.C. 
Committee. This goes back to the days of President Eisenhower.
    And so, when we were putting together transportation bills, 
you know, whether it was TEA-LU or whatever the machination 
was, Metro's funding wasn't included in that. There was no 
grab-bag for Metro to get money outside of the annual Federal 
appropriation. So we want a separate route through this 
committee to get the authorization bill together. But that is 
one of the reasons I think that money was not as forthcoming.
    Of course, second, although the Metro system operates in 
three different jurisdictions--D.C., Maryland, and Virginia--
when it comes to transportation funding, it is a grab-bag. And 
whether it was under the Federal Transit Administration or 
UMTA, its precursors, we are not able to get it in the same 
way, because we weren't on the same list. We operated 
independently and separate. That is why Metro needed its own 
funding legislation that we put forward.
    Mr. Chaffetz. But the consequence, if the funding doesn't 
happen--I mean, it wasn't in the President's first budget. If 
these things don't come to fruition, what do you see happening?
    Mr. Davis. There is a $6 billion documented need. Our 
legislation addresses $3 billion of it, which is half Federal 
and half local dedicated revenue, which they never had before.
    Under the President's budget, there would have been nothing 
in there originally. And that is why we are grateful that the 
House put it in. Nothing proceeds. By the way, if the Federal 
Government doesn't put their $150 million in, the local 
jurisdictions may decide not to, too. So it is almost a $300 
million hit.
    But it looks like it is on its way.
    Mr. Chaffetz. Ms. Jeter, let me ask you real quickly in the 
brief moments that I have here, as the chairman was talking 
about the manual versus automatic, can you talk a little bit 
about the morale and things that you are seeing happening now?
    Because I really get concerned that when we have Federal 
employees and the public at large traveling here. Obviously, 
any crash is devastating.
    You were quoted as saying, ``We haven't received anything 
that would make us think this was an isolated incident. I do 
need to know that this is not going to happen again. I do have 
people out there who are afraid.''
    Ms. Jeter. Yes. You know, as operators report to work every 
day, I think the main thing to remember is that we are trained 
to be professionals, but your own basic need for survival and 
your instincts kick in, you know, at some point.
    And because early on in the investigation we had received 
information from different operators that there had been other 
instances where, even though a crash had not taken place, that 
their train did not respond to the commands, or the wayside 
equipment did not command the train as it should have. And so, 
for that reason, yes, we do have employees that are 
apprehensive about whether or not this will occur again.
    But I do believe that, as professional as we all try to be 
in our occupations and as we report to our jobs, the operators 
will continue to work. Those who would like to go back to the 
bus and maybe don't have the stomach anymore for operating a 
train, I am sure that Mr. Kubicek will make sure that they have 
the opportunity to do so.
    Mr. Chaffetz. And real quickly, I only have seconds left 
here, but maybe if each of the three of you could just address, 
what is the No. 1 thing you would like to see us do?
    Mr. Millar. Well, certainly, as Mr. Mica said, getting good 
funding in place for safety, getting a long-term transportation 
bill with sufficient resources so not only WMATA but transit 
systems across the country can address their fundamental needs 
is critical.
    Mr. Chaffetz. Thank you. Sorry, my time is short.
    Ms. Jeter.
    Ms. Jeter. I think the funding is essential. No matter what 
you talk about, whether you talk about training, whether you 
talk about enhanced technology, you need dollars, no matter 
what.
    Mr. Davis. Two things. First, adopt the Metro Compact 
amendments. The Federal Government has not adopted their share. 
I think that enhances the annual funding $150 million, which is 
put in. And second, I think we ought to take a shot at some of 
the stimulus money and bring it right here to correct these 
problems right now.
    Mr. Chaffetz. Thank you.
    Thank you, Mr. Chairman.
    Mr. Lynch. I thank you.
    I want to recognize that Mr. Tuite has agreed to join us 
now. Let me just do a brief introduction, and then I am going 
to have to swear Mr. Tuite so that he can respond to questions.
    Mr. Patrick Tuite is currently the associate chair and head 
of the master's of arts program in theater and history and 
criticism at the Catholic University of America. He has also 
taught at the University of Notre Dame and the Ohio State 
University. At the time of this accident relevant to this 
hearing, Mr. Tuite was in the front of the second car of train 
112, the one that actually came forward and then struck 214, 
and he helped people exit the train after the collision 
occurred.
    Mr. Tuite, it is the custom of this committee to have 
witnesses sworn who are here to provide testimony. Could I ask 
you to stand and raise your right hand?
    [Witness sworn.]
    Mr. Lynch. Let the record show that Mr. Tuite has answered 
in the affirmative.
    I will now yield 5 minutes to the gentleman from northern 
Virginia, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    Let me ask my predecessor Mr. Davis, if we don't amend the 
compact for Metro, is the Federal money tied up until we do?
    Mr. Davis. No. My understanding is it's not tied up. One of 
the reasons the administration didn't fund it is because, under 
the law, without the compact being amended, they weren't 
obligated to fund it. But I think this just puts it in motion, 
and it makes it a lot easier to get money in the outyears. One 
hundred fifty million dollars in this environment is tough.
    Mr. Connolly. With respect to my colleague Mr. Chaffetz's 
question, is it not true that Metro has either the highest fare 
box recovery rate or the second highest in the United States; 
do you know?
    Mr. Davis. Second highest.
    Mr. Connolly. So the users are, in fact, certainly paying 
their fair share.
    Mr. Davis. I think they are, as somebody who uses it.
    Mr. Connolly. And until this legislation, most of the 
financial burden in terms of subsidies has fallen on the State 
of Maryland, the District of Columbia, and the localities in 
Virginia; is that not correct?
    Mr. Davis. That is correct. That's where the subsidies come 
from, right out of local and State budgets.
    Mr. Connolly. Is there any other subway system in America 
that bears the brunt of almost 15 million visitors from all 
around the country, and indeed around the world, other than the 
Metro system?
    Mr. Davis. Yeah, I mean, New York may. I don't know the 
answer, but New York has a State funding mechanism and a 
completely different mechanism. It was built at a different 
time in a different era.
    Mr. Connolly. And isn't it true, Congressman Davis, that 
perhaps the largest single beneficiary daily of the Metro 
system being here is, in fact, the Federal Government moving 
its Federal work force?
    Mr. Davis. It's Federal Government moving its workers, it's 
tourists who come here to visit their Nation's Capital. You 
know, the Moscow subway system is an elaborate system, and they 
didn't chintz on it. They funded it; this was a statement of 
how they wanted the world to see their government. 
Unfortunately, I don't think it's been the same here.
    Mr. Connolly. I think that's really a good point. This is 
the Nation's Capital. It's arguably been called the capital of 
the free world. And the Federal Government has some 
responsibility, beyond the initial construction costs, to help 
make sure that system remains healthy and safe and, indeed, 
hopefully can be expanded in what is, after all, a 
nonattainment region in terms of air quality, with, by some 
measurements, the second worst congestion in the United States.
    Mr. Davis. And that was President Eisenhower's vision, that 
this would be the Nation's subway system, it wouldn't just be 
another local subway system competing with all the other local 
subway systems.
    Mr. Connolly. Ms. Jeter, you were being asked about 
previous statements you made about the nervousness of the work 
force. And, of course, I do think it's important to put in 
perspective, the tragedy notwithstanding, in the 33 years of 
operation of the Metro system, it has functioned on a daily 
basis as one of the safest transit systems in the United 
States; is that not correct?
    Ms. Jeter. That is correct.
    Mr. Connolly. And, as a matter of fact, I think we've had a 
total of three major accidents in the history of the system; is 
that not correct?
    Ms. Jeter. That's correct. But I would also like to add, 
Mr. Connolly, that even though we have not had those types of 
accidents, as a rail operator I know that when an accident 
occurs, it occurs.
    Mr. Connolly. Absolutely. And one of the things that 
occurred, Ms. Jeter--and, Mr. Millar, you may want to comment 
as well--was because we were having what's called 1000-series 
cars, some of the very earliest cars in the system, in the 
front of the train that crashed into the stationary train; is 
that correct?
    Ms. Jeter. Yes.
    Mr. Connolly. And the 1000-series cars are, in terms of 
crashworthiness and safe haven for passengers, a lot less safe 
and reliable than more recently constructed cars; is that 
correct?
    Ms. Jeter. They are the weaker-built cars.
    Mr. Connolly. And is it also true, to your knowledge, that 
there is no Federal standard in terms of crashworthiness and 
safety of passengers on transit systems; there is for rail 
systems like Amtrak, but there is not for transit? And my time 
is up, but perhaps you would like to comment on that.
    Ms. Jeter. Not that I know of.
    Mr. Millar. What there is is the federally endorsed 
voluntary standard system, crashworthiness, that I describe in 
my testimony that's been developed. Obviously, older cars were 
built under the practices of the time. As newer cars are built 
and purchased, they will be bought, presumably, to the 
standards of that time. And cars that are bought 10 years from 
now will have to their standards; continuously moving and 
improving over time.
    Mr. Connolly. Mr. Chairman, my time is up, but this is an 
issue that has come out of the regional delegation's 
examination of the tragedy of June 22nd, this anomaly in 
Federal regulation where we do regulate for hard railcars on 
railroad systems, but not for transit. It's a voluntary system 
of safety. And this committee may want to take a fresh look at 
that.
    I thank the Chair.
    Mr. Lynch. I thank the gentleman.
    I would now like to recognize the gentlewoman from the 
District of Columbia Ms. Holmes Norton, who has been a driving 
force, along with Mr. Cummings and Mr. Connolly, on this issue. 
The gentlelady is recognized for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Millar, your testimony is replete with standards. I 
mean, they're the kind of standards that I think the public 
thought were required.
    First I want to know who has adopted these standards? And 
then I want to ask you why you believe the Federal Government 
has done no more than give you a charge to develop standards 
while apparently not giving anyone the charge to enforce 
standards?
    Mr. Millar. Yes. The standards are developed under Federal 
law that allow for industry-developed standards. The 
development of our standards has been funded both by our own 
members as well as the Federal Transit Administration when it 
comes to rail transit and bus transit standards. When it comes 
to commuter rail standards, those have also been worked on by 
the Federal Railroad Administration as well. It is up to each 
transit property themselves to adopt standards as----
    Ms. Norton. So what is the usual practice? When you develop 
standards, have you found that transit systems across the 
United States readily develop these standards, and did WMATA do 
so?
    Mr. Millar. Yes. We have found that once the standards are 
developed and agreed to--they're called ``consensus standards'' 
because there is agreement that this is the right standard--
then we find transit systems do, in fact, use those standards 
because they want to improve safety, and the standards do that. 
As to whether WMATA----
    Ms. Norton. They are common carriers, and, of course, in 
our law you would expect them to improve and want to do so.
    Let me ask Mr. Davis, who knows so much about the system 
and began us in this process, you heard the testimony here that 
we have a long list of standards. Do you believe the time has 
come, Mr. Davis, for the Federal Transit Administration or some 
agency of the Federal Government to, in fact, enforce some of 
these minimal standards for safety of passengers in transit 
systems throughout the United States?
    Mr. Davis. Sure. But let me note one other thing. There is, 
to my knowledge, no identifiable grant source to buy railcars 
outside of the New Starts Program. So when you start talking 
about our ability to buy railcars and the like, it comes right 
out of Metro's hide. They can't go to the Federal Government 
for that.
    Ms. Norton. Are you implying that the Federal Government 
does not have the authority under the interstate commerce 
clause to require minimal standards?
    Mr. Davis. No. I think they have the authority.
    Ms. Norton. Let me ask Ms. Jeter.
    Ms. Jeter, you talk about people aging out. These are union 
jobs, which, as far as I know, are high-paid union jobs. May I 
offer again my condolences to you and to the excellent work 
force at WMATA, and congratulate you especially for what you 
did through the inauguration. You were way beyond the call of 
duty.
    Ms. Jeter. Thank you.
    Ms. Norton. But here you talk about operators aging out. 
The operator who sacrificed her life worked her way up the 
ladder. Is there some difficulty in attracting people to these 
high-paid union jobs?
    Ms. Jeter. I think there is to a certain point. Let me say 
this: WMATA, the union we have right now, the majority of the 
7,900 or so employees, the majority of them have less than 10 
years of service. So you have a relatively young work force, 
young in the amount of time that they have been on the 
property.
    I think that where transportation is concerned, although it 
is a very well-paid position, it can be something that some of 
us don't enjoy doing. As a person who has been employed by 
WMATA for 30 years, there are many Christmases and 
Thanksgivings that I did not spend with my family. There were 
plenty of PTA meetings----
    Ms. Norton. But is there a work force ready and willing to 
step up as the work force ages out?
    Ms. Jeter. I think that there have been some changes that 
have been made. I know as soon as Mr. Catoe got on board, 
probably about 6 months after I became president and he became 
the general manager, we had a conversation about bringing 
people in full time versus part time so that they would be 
willing to step into regular positions.
    I don't think that WMATA has any trouble recruiting. I 
think that transportation, because of its stringent rules and 
regulations, have trouble staying, to be honest.
    Ms. Norton. I see my time is up. I hope we have a second 
round, Mr. Chairman.
    Mr. Lynch. The Chair now recognizes the gentleman from 
Maryland, Mr. Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I want to thank all of you for your testimony.
    Mr. Millar, when I was looking at the Washington Post this 
morning, they were talking about the NTSB and their letter that 
they apparently sent to you all within the last few days, and 
your immediate response, which I thought was good. And I'm just 
wondering, is the level of automation on the operation of the 
WMATA system unusual compared to other systems?
    Mr. Millar. I would say yes. I would say that at the time 
that it was designed, only the BART system in California really 
had comparable, and WMATA really even went a step further. On 
the other hand, around the world, newer systems now have much 
more advanced systems. So at the time, absolutely; today, not 
so much.
    Mr. Cummings. And in your opinion, what are the particular 
risks that come with relying on such a high level of 
automation?
    Mr. Millar. Well, you have to make sure of the proper 
design of the automation. You certainly have to make sure of 
the proper maintenance of the automation. You have to be very 
careful that when any changes are made--for example, if a new 
technology fix is intended to be brought in--that there aren't 
unintended consequences. You certainly have to make sure that 
the employees are well trained and familiar with both how to 
maintain and how to use the service. You also have to make sure 
that you don't expect it to deliver more than it can deliver. 
So you always have to use your technology appropriately. This 
is no different.
    Mr. Cummings. And how do you make sure that the things that 
you just said are done? The other day I went to get my brakes 
fixed, and when I got in my car, literally my foot went down to 
the metal, and the car wasn't stopping. I won't name the 
company, but the reason why I mention that is I think that when 
you have automation, it takes human beings to make sure that 
all of that stuff works. And I'm just trying to figure out how 
do you make sure that you've got everything. It seems like when 
you're depending upon a train to stop or to do certain things, 
and it could result, as here, in the loss of life and 
significant injuries, how do you make sure that you have layers 
of compliance and make sure that people do what they're 
supposed to do? And I'm not saying they don't.
    Mr. Millar. A couple of ways I would answer your question. 
First, each transit agency in America is a public agency; it 
has its own procedures, it has its own adopted processes, it 
has its own responsibility to train its employees in those 
processes. More recently, over the last few years, APTA, in 
cooperation with FTA and others, has been developing standard 
operating procedures and maintenance procedures that can be 
used. You gave the example of brakes on your car. That's one of 
the very early areas that we develop standards in so that 
employees can have a standard to work against.
    We also now have a certification program in our industry. I 
believe WMATA participates in that certification program so the 
men and women can know what the standards are, know what the 
procedures are, be trained in those, tested in those to make 
sure that they are well qualified to work. So those are usually 
the general ways that these things are handled.
    Mr. Cummings. And in response to two WMATA accidents in 
2006, the NTSB determined that the lack of rule compliance 
testing and enforcement on the WMATA system contributed to both 
2006 WMATA accidents. And how does WMATA's rule-compliance 
testing measure up to other systems?
    Mr. Millar. We have worked with WMATA and other transit 
systems in this particular area. Recently, WMATA has been 
particularly placing emphasis on safety and compliance with 
safety. I believe when the WMATA folks testify later in this 
hearing, they could tell you much more about that than I'm 
capable of relating to you. If there is a followup question 
after that, I would be happy to supply it to you and for the 
record as the committee might desire.
    Mr. Cummings. Ms. Jeter, I heard the last few seconds of 
your answer to a question. One of the things that you said is 
that they need the resources. I think you were talking about 
funding; I caught that. How confident do you feel that if the 
money were there, that it would be used for the right things?
    Ms. Jeter. I feel relatively confident. I also think that, 
along with funding, you also have to have regulations, and you 
have to have those criteria in place when they're supposed to 
do it.
    In your questioning, you were talking about the training 
that people would have to have in order to do all of this. 
Funding provides the money for the training, but I also think 
that we have to stop paying lip service and actually do it. If 
it's necessary to train the entire fleet of employees in a 
particular new technology, then all of them need to be trained, 
not just part of them today, and then 6 months later we get to 
the other part. By the time we get to the other part 6 months 
later, a number of things have occurred. So I think that's some 
of what we have to do.
    As an employee I've watched where 25 people go to training 
for one particular thing, and then we don't see that training 
anymore, we move on to the next thing. We have to stop doing 
that. I think we, as transit, have to stop doing that to ensure 
that all employees are trained on all things that concern any 
part of transit.
    Mr. Cummings. I see my time is up. Thank you, Mr. Chairman.
    Mr. Lynch. I thank the gentleman.
    The Chair is now pleased to recognize the gentleman from 
California, Mr. Bilbray, for 5 minutes.
    Mr. Bilbray. Thank you, Mr. Chairman.
    I apologize to the committee because I like to get into the 
weeds; you know, once a transit operator, always a transit 
operator. I guess the question will be technical, but also from 
the union's point of view.
    One of the things that was developed in the early 1970's 
and late 1960's was this concept that automation was the thing 
of the future. It wasn't until late in the 1970's that we 
started seeing that you still have to have somebody in the cab.
    Now, my question is this: As I remember, in 1978 when we 
were building our LRT system in San Diego, we were told by 
BART, we were told by Edmonton, we were told quietly out of 
D.C. that the system of having automated operation with a 
manual override--which is basically what we have now--was not 
the way to go; that the fact is the opposite should be the way 
to go, have manual operation and an automated override. Now, 
there may be the issue of proximity of trains and everything 
else, but what we were told when we were talking to the people 
on the front line was that the fatigue of an operator was more 
when they were not operating the car itself, were sitting and 
basically just keeping an eye on the machine than to physically 
operate the system.
    Has anybody done a system study on the reaction time of 
somebody who is not actually operating the vehicle as opposed 
to somebody who is physically doing the operation?
    Mr. Millar. I'm not familiar if there is such a study. I 
can tell you the question you've posed is an unresolved 
question. There are transit systems built today in the world 
that are fully automatic, no manual override whatsoever. There 
are transit systems in the world that have some automatic 
train-control features but much more heavily reliance on the 
operator.
    Where there is clear agreement, is that having automatic 
train protection systems, such as was included earlier in 
testimony today about in the Rail Safety Act last fall. There 
is no disagreement about that. That needs to be done and is 
being done around the world.
    But I am not familiar with such a study. I will check our 
records, and if I find such a study, I will be glad to make it 
available for you, sir.
    Mr. Bilbray. Ma'am, from the labor point of view.
    Ms. Jeter. I believe that running a system automatic is the 
right system to run in. The train just runs smoother as a 
whole. I think that having a human being there stops whatever 
from occurring whatever problems you might have with the system 
from occurring. And the operator can override and put it in 
manual. But I do believe, as an operator, that running that 
system on automatic, we are supposed to have an automatic 
system, it should be able to run and run sufficiently in 
automatic.
    Mr. Bilbray. But, see, that's the theory. And we had the 
bells and whistles; you basically had the engineers that like 
to engineer everything and try to engineer the human factor 
out. But we were strongly urged, after BART got into operation, 
not ignore the impact on the human of not doing anything. The 
mind ends up drifting off; there is a lack of concentration. So 
the reaction to an emergency is going to be much slower for 
somebody who's not actually engaged in the operation than 
somebody who is observing it and then is expected to impose on. 
I think that we've got to be open and frank.
    I'll give you an example. When you fly a B-2 bomber, 
they're being flown by the person in the pilot seat, but the 
computer can override and stop you from doing the wrong things. 
We've got technology that's one of the most sophisticated 
systems that Americans ever developed operating off that mode, 
and we're operating on a 1970 mode that machines and computers 
can do it. And it was all actually an afterthought that we put 
people on board as a backup.
    I'm not so sure that we shouldn't be taking the time to 
study this, and make sure the assumptions we made earlier in 
the 1970's are the best assumptions going into the next 
century. I think we need to legitimately say we assume that the 
driver will respond to the crisis in a timely manner as opposed 
to the other way around. And I think we should rethink that. 
I'll tell you personally, as somebody who was building a system 
back in the late 1970's, I still remember being told again and 
again by drivers to watch out for this system, it has this 
problem. And when the accident happened, Madam Chair, I thought 
back to those warnings I kept hearing.
    Go ahead.
    Ms. Jeter. The other part of that is when you operate for 8 
hours manually, you also run the risk of someone getting tired. 
So I think that it has a dual effect on individuals.
    You know, as a seasoned operator, I say when you get tired 
and you feel yourself maybe not paying attention, stand up, do 
something other than just sit there and be lulled with the 
movement of the train. You have to condition yourself to know 
that being alert; is your job, that's what you're supposed to 
do. When you're not operating that train in manual, you're 
supposed to be alert, you're supposed to know what that train 
is doing at all times.
    Mr. Bilbray. Madam Chair, I appreciate the time. I think it 
may be time to go back and study the human impact on this. We 
always are looking at the machines, but I think we've got to 
integrate the human factor. Assumptions made 20, 30 years ago 
may not be reality today, and I think that we ought to 
ultimately and frankly discuss that.
    Ms. Norton [presiding]. Thank you, Mr. Bilbray.
    Mr. Tuite, the chairman promised that on the second round 
of questions, we would let you begin, because we have not yet 
heard from an eyewitness who was involved in this accident. You 
have 5 minutes to summarize your testimony, please.
    Mr. Tuite. Thank you, Chairwoman.
    Ms. Norton. Could I just say that I have received word, Mr. 
Davis, that you may have to leave. I want to thank you for the 
chairman and the committee for taking the time to follow 
through on what you began here when you were Chair of the full 
committee. So if you have to leave, you will be excused with 
thanks and gratitude.
    Mr. Tuite.

STATEMENT OF PATRICK TUITE, EYE WITNESS AND METRORAIL TRAIN 112 
                             RIDER

    Mr. Tuite. I want to apologize first for my delay. I knew 
that I had to be here at 2 o'clock. I live in Kensington, MD. I 
decided for the first time since the accident to take the Red 
Line. I left my home at 12:37. I did not arrive here at Capitol 
South until 2:55.
    Ms. Norton. The Red Line is being held up because of the 
accident, I take it.
    Mr. Tuite. Yes. And the elevators weren't operating at 
Forest Glen, and there were a number of other problems that 
caused that delay. So I apologize, but please appreciate my 
frustration in even giving you that apology.
    On the afternoon of June 22nd, I was on my way to teach a 
night class at the Catholic University of America. I decided 
that night, on a whim to save some gas, to park at the Wheaton 
Metro, and take the Red Line down.
    I normally ride in the first car of the train, but on that 
evening it was hot, I was dressed for work, I decided to stay 
in front of an air conditioner on the platform at the Wheaton 
station, and because of that got on the second car of the train 
and sat on the forward-most right-hand side facing forward near 
the forward-most doors, if that helps at all.
    While riding the train, I read the paper, as I do in the 
tunnel. And then, as we came out of the tunnel, approaching the 
Silver Spring station, somewhere around Silver Spring or 
Takoma, I got a little tired and put down the paper. The 
operator came on and told us to expect a delay. This was a 
typical announcement, this was nothing unusual. I could hear 
the operator's voice. She reassured us that we would take a 
delay, stop in between stations, and then start back up again.
    So as the train came to a stop somewhere south of Silver 
Spring or south of Takoma, I don't remember which, I closed my 
eyes and relaxed a little bit. The train began to move again 
while my eyes were closed. I had put the paper down. And then 
somewhere in there we got to a normal cruising speed, I'll call 
it, when I heard a screeching noise. A shuddering feeling came 
through the car; someone yelled behind me that she believed 
that we had derailed, and then one of the loudest bangs I've 
ever heard in my life.
    Everyone in the second car--and there weren't many of us--
were thrown from their seats. I hit the seat in front of me. I 
don't remember much of that, but I do remember being on the 
floor of the second car with a lot of dust, a lot of smoke, not 
much in the way of screaming, but all my belongings had been 
thrown to the front of that car.
    It's at that point--first of all, there was no noise. All 
the electricity was down. You could see the sunlight coming 
through, but it was very difficult to make out what was going 
on. A gentleman who had been sitting forward of me got to his 
feet and told everyone in the car we should go, everyone get 
out of the car.
    So people did get up. We moved in an orderly fashion; 
again, no screaming. A woman opened the emergency lever to get 
the center doors open. The center doors did not open. I helped 
by reaching in and sliding one of the doors open to the left, 
and we proceeded to get people out of that car and onto the 
rocks below. It was quite a big jump. I mean, it's a good 4\1/
2\ feet, 4 feet up to the rocks at that point. So we helped 
lower people out of the car. And it's only at that point when I 
paused, looked to my left out of the door, and realized that 
the car of the train was actually in the air.
    I could see debris on the ground, things thrown from the 
first car into the fencing. There was at least one man that I 
saw on the ground, khaki shorts, moving, but he did not look 
good; he was bleeding profusely from his legs. People were 
already moving toward him so that the people in my car decided 
to just exit as quickly as we could, as safely as we could, and 
then move to the back of the car--or all the way to the back of 
the train.
    We helped people off the train. When everyone was out of 
our car, I noticed two gentlemen had gotten into the second car 
and were moving to the doors in the interior of the car. I got 
back onto the train to assist those two gentlemen. They were 
attempting to open the interior door that connects the second 
car to the first car. That door was stuck. I learned later that 
the car I was in was also a 1000-series car, and what had 
happened was the roof of the car actually dimpled like a soda 
can. If you take your Sprite can or something, turn it 
sideways, imagine it's like the car and just press on the top, 
that's what happened to that second car. Because the roof was 
down, the struts that support that roof were also down. That 
prevented the door in the second car from opening enough for 
anyone in the first car to exit.
    There were two gentlemen with me. We could see, as we were 
trying to remove that door, that possibly we could take some 
ceiling panels down. We did that. That didn't work because the 
metal struts underneath that ceiling panel were stronger, we 
couldn't rip those out. So the door was stuck.
    We could hear the people at this point in the first car, 
and it didn't--it was pretty chaotic. They were screaming, they 
were upset. I could see through the window there were about 
four to five people in the rear-most section of the first car. 
I could not see beyond that, which would be the rear-most door 
as the side doors that open; you couldn't see past that because 
the flooring had crushed accordion like into that section, so 
all the handrails, all the seating was askew. We had handrails 
and posts pointing toward us, almost like tooth picks, and then 
four to five people trapped inside there.
    When this one young man on the other side realized that we 
could not open our door, he told us that he was going to break 
the glass. So he took his shirt off, wrapped it around his 
wrist, and started punching the glass. It was at that point 
that myself and the two other gentlemen moved out of the way to 
avoid the broken glass.
    At this time--and this is the first time that a first 
responder came to us--a WMATA operator, I don't know where 
from, but obviously not on our train, had come in through the 
third car into the second car. He had the vest, the walkie-
talkie, goatee, and told us that we should just exit that car 
as quickly as possible, that he would take care of that 
situation as best he could, and that first responders were on 
their way.
    So we moved through the cars themselves. They were empty at 
that point. The second and third car were empty. We moved into, 
I believe, the fourth car, jumped from the car, and then just 
got more people out of the cars as best we could, helped lower 
them. Again, I did not see a lot of first responders at this 
point because I had not been to the back of the train itself.
    I don't know what the time was, I don't know how long this 
narrative would account for, but when we got out of the train 
and were moving people out, someone shouted that they needed 
doctors and nurses. And that was quite vivid for me because I 
was lowering a woman in scrubs from maybe the fourth or fifth 
car, and she said, I'm a nurse, but I'm hurt. We said, we need 
you, and she went to the first car.
    After that, we pretty much moved everyone to the back of 
the train. It was very confusing. We saw two, I believe, plain-
clothes policemen in shorts with safety vests. I don't know who 
they represented, but they told us to stay away from the third 
rail, stay grouped at the back of the train.
    We had people wandering away from the scene. We had four 
passengers, at the very least, that I witnessed who picked up 
their belongings at the end of the train and simply walked 
north. They left. And there were not enough first responders to 
prevent them from leaving, and certainly none of us had our 
wits about us to say, don't go. We just let them go.
    The firemen who arrived on scene went to the parking lot 
between the Community Gardens north of New Hampshire Avenue 
bridge and the Jabroe--I think it's Jabroe Printing that has a 
parking lot there. They could not get to us because we had 
fencing between the CSX tracks and the Metro tracks. There are 
four sets of tracks at that point by the New Hampshire Street 
bridge. The Metro tracks are in the middle. There is fencing 
there to this day, with barbed wire on the top.
    The firemen can't get to you. The firemen's equipment, 
their trucks and whatnot, could not get on the tracks. So they 
had to lug their gear, things like jaws of life, diamond-
cutting saws, and other equipment, on stretchers, manually 
carrying that equipment toward the first car. This is when we 
started to see people at the back of the train. So we just 
waited. We waited and took care of one another as best we 
could.
    Mr. Lynch [presiding]. I thank the gentleman.
    [The prepared statement of Mr. Tuite follows:]

    [GRAPHIC] [TIFF OMITTED] T2712.021
    
    [GRAPHIC] [TIFF OMITTED] T2712.022
    
    [GRAPHIC] [TIFF OMITTED] T2712.023
    
    [GRAPHIC] [TIFF OMITTED] T2712.024
    
    Mr. Lynch. At this time I would like to recognize the 
gentlelady from the District of Columbia, Ms. Holmes Norton, 
for 5 minutes.
    Ms. Norton. I need to get on to Mr. Millar and Ms. Jeter, 
but I must ask you, were you injured, Mr. Tuite?
    Mr. Tuite. No, but I did have some soreness in my neck and 
back. I eventually was triaged, along with the other people in 
the parking lot. I just stayed. And toward the end of the 
evening, some of the first responders told people, look, if 
we've got your name and number, and we've looked after you, 
you're free to go, which I thought was a surprise.
    Ms. Norton. Your testimony has been really indispensable to 
this hearing. It's riveting testimony. I'm sure it's been 
helpful to the NTSB as well.
    Because I have only a short period of time. Mr. Millar, 
would you have advised WMATA to do what it now has done, to 
place the 1000-series cars in the middle and the more 
crashworthy cars at either end, yes or no?
    Mr. Millar. Yes. That seems like a prudent thing to do.
    Ms. Norton. Do you understand why they would not have done 
it before?
    Mr. Millar. I don't know what information they might have 
possessed then.
    Ms. Norton. Let me ask you this: Therefore, faced with 
choices that you can pull 30 percent of your fleet that goes 
back almost 40 years or put them in the middle, the choice 
should have been to put them in the middle so that either end 
would have the most crashworthy cars. Have you ever recommended 
anything of that kind?
    Mr. Millar. That is not a type of detailed recommendation 
we would normally participate in.
    I would caution that what looks like a very good idea, 
given the circumstances that we think we understand now, could, 
in a different set of circumstances, look like a very bad idea.
    Ms. Norton. And we will question the next panel on that.
    Ms. Jeter, it's important to hear your testimony about 
automatic versus manual. You know that some members of the 
public have been concerned about reports of a Metro operator 
who seemed to be sleeping. I tell you one thing, it's easy to 
go to sleep on any kind of moving vehicle, especially a train. 
There was concern, and we are so pleased to learn that the 
operator didn't even have her cell phone with her, so we know 
that she was paying close attention.
    I understand what automatic does, but I really have to ask 
you, what is there, and shouldn't there be something, that the 
operator has to do fairly often during the trip to keep her 
alert in light of human instinct to get bored if you're just 
sitting there doing the same thing over and over again? Isn't 
there something more that should be done, either you or Mr. 
Millar, to keep people alert?
    Ms. Jeter. Well, actually we do. The operators are 
responsible for opening and closing the doors at this point. We 
are also responsible for giving out announcements. It's our job 
to listen to the radios and monitor the radios so that we know 
what is going on in the railroad ahead of us.
    Ms. Norton. So you really think there is enough to keep 
people alert already.
    Ms. Jeter. I do.
    Ms. Norton. And I see you shaking your head, Mr. Millar.
    Mr. Millar, in your testimony, I note that you say this 
fundamental system, that WMATA had adopted, also provides safe 
and effective service in other major cities. You name Boston, 
Atlanta, Baltimore, Miami, Philadelphia and San Francisco. Do 
you believe that the system here is as safe as those systems 
you had enumerated in your testimony?
    Mr. Millar. It's at least as safe. I have full confidence 
in the Metro system here.
    Ms. Norton. In reading your testimony, Ms. Jeter, I 
sometimes, because I don't understand enough about trains, had 
to try to distinguish between what WMATA could have done and 
what was too costly to do. You were generous in saying WMATA 
didn't have a lot of money to do what really needed to be done.
    You recommended retrofitting some of the cars. Given the 
age of this car and the kind of funds it would take to 
retrofit--and I suppose I should ask this question to Mr. 
Millar--40-year-old cars, and make them crashworthy, was that a 
real option for WMATA? Mr. Millar, yes or no, do you think that 
was a real option?
    Mr. Millar. I don't know the facts specifically here, but I 
agree with the fundamentals of your point that if you're going 
to be retiring a car soon, you want to do only what is 
absolutely necessary to keep safety and operational efficiency.
    Ms. Norton. I will have to ask whether it was worth the 
investment.
    Let me ask about your testimony, Ms. Jeter, about car-borne 
monitors. You say that NTSB recommended car-borne monitors in 
every WMATA car to give advance performance data. Now, would 
that have been costly? And do you believe that WMATA installed 
what it could that was not excessively costly, or that 
contraptions like these car-borne monitors could have and 
should have been installed in any case?
    Ms. Jeter. I think over the years WMATA probably purchased 
new cars hoping to alleviate the problems that had been 
identified. It would be harsh for me to say that they 
purposefully did not follow----
    Ms. Norton. No, but that's not my question. You talk about 
rollback, and there are some things that they didn't install.
    Ms. Jeter. Correct.
    Ms. Norton. Do you think that WMATA, given the 
circumstances it faced with Congress not providing the money 
and the system not having anything like the funds, did what it 
could to prevent this accident, assuming that it didn't have 
the money for all new cars or maybe even retrofitting cars?
    Ms. Jeter. Where this accident is concerned, to be 
perfectly honest, I think there was part of the situation that 
was missed, either through supervision, whether or not it was 
monitoring that should have taken place after some of the 
circuitry was changed on the rails. I think that's a place 
where we probably need to go back and look at what the 
procedures are so that we would have the procedures in place.
    It's my understanding that once that Wee-Z bond was 
changed, or once there was a problem identified with that Wee-Z 
bond, there should have been certain things done to assure that 
it was operating as it should have been. And apparently it 
wasn't, because it's my understanding that train 112 wasn't 
even seen. So if the train wasn't seen, why? Was that a bond 
that prohibited that train from being able to be monitored by 
either central control or some other manual?
    Ms. Norton. Thank you, Ms. Jeter.
    Mr. Lynch. Thank you.
    Now I would like to recognize the gentleman from Maryland, 
Mr. Van Hollen, who has been an active and attentive Member on 
this issue, a member of our full committee. I recognize the 
gentleman for 5 minutes.
    Mr. Van Hollen. I thank you, Mr. Chairman. Thank you for 
bringing this together on this very important issue, and I 
won't use the whole 5 minutes.
    I do want to thank our former colleague Mr. Davis, who had 
to leave, again for his longtime leadership on the question of 
WMATA. All of us from this region are very pleased that we were 
able to get the $150 million appropriation from the 
Appropriations Committee subcommittee. And obviously that's the 
first step in providing the Federal component of the ongoing 
funding.
    To Mr. Tuite, it's great to have a fellow resident of the 
town of Kensington with us. And thank you for sharing your 
story.
    I thank all of our witnesses.
    In fact, my colleague Ms. Norton asked some of the 
questions I was going to ask of the other two of you. So in the 
interest of time, Mr. Chairman, I will move to the next one. I 
want to thank you.
    Mr. Lynch. I thank the gentleman.
    We want to thank each of you for your testimony here today. 
As always, there are a number of other hearings going on at the 
same time. Also, as you know, we've had votes on the floor. I 
will ask that you remain responsive. If Members who were not 
here at the hearing today have any questions that they would 
submit in writing, I would forward them to you and would ask 
that you respond to them within 5 days.
    With that, I want to thank you for your testimony today, 
and I bid you a good day. Thank you.
    The Chair would like to call forward our second panel.
    Good afternoon. I would like to welcome our second panel 
and thank you in advance for your testimony.
    It is the custom of this committee to ask witnesses to be 
sworn who are to provide testimony before it. So could I ask 
you all to rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Lynch. Let the record show that all of the witnesses 
have answered in the affirmative.
    In the interest of time, what I would like to do is just to 
offer a brief introduction of each of the witnesses, and then 
we will go back and allow the witnesses to provide an opening 
statement.
    Council Member Jim Graham became chairman of the Metro 
Board in January 1999. Mr. Graham currently serves on the 
Council of the District of Columbia representing Ward 1. He 
also chairs the council's committee on public works and 
transportation. Mr. Graham served as executive director of the 
Whitman Walker Clinic from 1984 to 1998. Previously Mr. Graham 
served as staff counsel for Senator Abe Ribicoff, a Democrat 
from Connecticut, and clerked for Chief Justice Earl Warren, 
now retired.
    Mr. John B. Catoe has more than 30 years of experience in 
public transportation. As general manager of the Washington 
Metropolitan Area Transit Authority, he oversees the second 
largest rail transit system and the fifth largest bus network 
in the United States, with more than 10,000 employees, a $1.3 
billion operating budget, and a $3.1 billion 5-year capital 
improvements program.
    Ms. Deborah A.P. Hersman was sworn in as the 35th member of 
the National Transportation Safety Board on June 21, 2004. 
Since her appointment to the Board, Ms. Hersman has been the 
member on scene at 15 major transportation accidents. Before 
joining the NTSB, Ms. Hersman was a senior professional staff 
member of the U.S. Senate Committee on Commerce, Science and 
Transportation from 1999 to 2004.
    Mr. Eric Madison joined the Mass Transit Administration as 
transportation planner in 2007. Mr. Madison was appointed as a 
district representative to the Tri-State Oversight Committee 
for State safety oversight of the Washington Metropolitan Area 
Transit Authority Metrorail system, and in April 2007 became 
Chair of the committee. Mr. Madison began his career with the 
District Department of Transportation in 2003 as an 
administrative management officer for the Public Space 
Management Administration.
    Mr. Peter M. Rogoff was confirmed by the U.S. Senate as 
Administrator of the Federal Transit Administration in May 
2009. Prior to joining the Federal Transit Authority, Mr. 
Rogoff served on the staff of the Senate Appropriations 
Committee for 22 years, including 14 years as the Democratic 
staff director of the Transportation Subcommittee. Mr. Rogoff 
has a strong background in Federal infrastructure, budgeting 
and finance, and has played an active role in the financing of 
the last three comprehensive surface transportation 
reauthorization bills.
    I would now like to recognize Mr. Graham for 5 minutes for 
an opening statement.

  STATEMENTS OF COUNCILMEMBER JIM GRAHAM, CHAIRMAN, BOARD OF 
DIRECTORS, WASHINGTON METROPOLITAN AREA TRANSIT AUTHORITY; JOHN 
B. CATOE, GENERAL MANAGER, WASHINGTON METROPOLITAN AREA TRANSIT 
       AUTHORITY; DEBORAH A.P. HERSMAN, MEMBER, NATIONAL 
 TRANSPORTATION SAFETY BOARD; PETER M. ROGOFF, ADMINISTRATOR, 
  FEDERAL TRANSIT ADMINISTRATION; AND ERIC MADISON, CHAIRMAN, 
                 TRI-STATE OVERSIGHT COMMITTEE

                    STATEMENT OF JIM GRAHAM

    Mr. Graham. Thank you very much, Mr. Chairman and Ranking 
Member Chaffetz, Delegate Norton, Congressman Connolly and 
Congressman Van Hollen. I am here today in my capacity as 
chairman of the Metro/WMATA board.
    June 22, 2009, was and will always be a date of great 
tragedy for our agency and for all who rely on it. Those most 
directly impacted remain in our hearts and prayers and motivate 
our every action. I want to especially thank Mr. Tuite for 
coming here today to share his personal experience, which I 
found very impactful.
    As a first step, our board did act within 24 hours to 
authorize the general manager to provide emergency hardship 
relief funds to those who were victims of this tragedy. That 
relief was not contingent on anything, and it was made clear 
that it had no ramifications of a legal nature insofar as 
ultimate liability. It was, rather, a humanitarian gesture to 
relieve immediate hardship. And I know firsthand from working 
with certain of these families that it was really very much 
appreciated.
    On behalf of our board of directors, I want to say that we 
believe in our management, and we have confidence in the skill 
and dedication of our general manager John Catoe. We believe 
our system is safe, and we will do all we can to ensure that 
once the probable cause or causes of the accident are 
identified, action will be taken by the authority to remedy and 
address those problems.
    Please keep in mind that in all of our history, there has 
been but one other fatality involving passengers, and that was 
more than 25 years ago. But for pressing infrastructure needs, 
we need real action by the Congress to make good on the promise 
in last year's authorization act and thereby provide a full 
payment of $150 million in fiscal year 2010 Federal 
appropriations.
    Presently, our local jurisdictions carry nearly the entire 
burden. For example, D.C. taxpayers will send some $300 million 
to Metro/WMATA in fiscal year 2010. We are very encouraged, Mr. 
Chairman, by the action that was taken yesterday by the House 
Appropriations Subcommittee on Transportation to take that 
first and extraordinarily important step in appropriating $150 
million for fiscal year 2010.
    I want to commend everyone that was involved in this, most 
particularly our regional delegation. Some of the Members are 
here today: Delegate Norton, Congressman Connolly, Congressman 
Van Hollen, and others. And I also want to single out our 
Majority Leader Mr. Hoyer for his fine role in all of this.
    I believe that if Congress acts to finalize the $150 
million for fiscal year 2010, that D.C., Maryland, and the 
Commonwealth of Virginia will all find the matching funds to 
bring together $300 million annually for each of the next 10 
years. This money will make a critical difference in our 
abilities.
    Mr. Chairman, I remember our last hearing where you were so 
diligent in terms of making sure that we had put everything out 
of the path in terms of obstacles in order to make sure that 
this money would become available. But, Mr. Chairman, we also 
need to have the active commitment of President Barack Obama 
and his administration to find emergency stimulus dollars for 
immediate assistance with these infrastructure issues. I noted 
that Congressman Davis made a particular point of this in his 
comments today.
    Finally, we appreciate the support of our local 
congressional delegation, as I have said, and it's continued to 
work to move all of this forward. Thank you.
    Mr. Lynch. I thank the gentleman.
    [The prepared statement of Mr. Graham follows:]

    [GRAPHIC] [TIFF OMITTED] T2712.025
    
    [GRAPHIC] [TIFF OMITTED] T2712.026
    
    [GRAPHIC] [TIFF OMITTED] T2712.027
    
    Mr. Lynch. Mr. Catoe, you are now recognized for 5 minutes.

                   STATEMENT OF JOHN B. CATOE

    Mr. Catoe. Thank you, Mr. Chairman and also Ranking Member 
Chaffetz. I'mhappy to be here today to testify in front of you 
in the position of general manager of the Washington 
Metropolitan Area Transit Authority [WMATA], or Metro.
    The basic facts of what happened on June 22nd are really 
described in my written testimony, as well as the testimony 
from the National Transportation Safety Board. And through this 
questioning this afternoon, I'm sure we will cover every aspect 
of that.
    I do want to say that we were working with the National 
Transportation Safety Board to provide support in their 
investigation, and they have the lead responsibility for the 
investigation of this accident.
    Today, I will focus on the steps that Metro has taken since 
the accident to ensure the safety of our riders and employees, 
and also touch on the capital needs of this organization.
    First, I would like to extend my sympathy and those of all 
Metro employees to the families of those who died in this 
accident. I, as well as all Metro employees, are saddened by 
this event, but my grief is only small compared to the grief of 
the families of those who lost their lives.
    Our thoughts are also with those who are injured, and we 
pray for their speedy recovery. This is a difficult time for 
them and their loved ones, and we would do whatever we can to 
help them come through this process.
    I would also like to take a moment to acknowledge and thank 
the first responders from the District of Columbia as well as 
from other local fire departments, police departments, as well 
as members of the Metro Transit Police and our employees, who 
responded to this accident and provided assistance in a very 
quick, in my judgment, time period. My written testimony also 
includes the list of those who provided assistance, for which I 
am truly, deeply grateful.
    Safety is at the foundation of what we do at Metro. We have 
always taken our responsibility to safety seriously, and we 
have always taken a number of steps to ensure that this system 
is as safe as possible.
    First, upon notice of this accident, we began to operate 
all of our trains in manual mode, rather than automated mode, 
to ensure, again, the integrity of the system.
    Second, within days of discovering that a track circuit in 
the area of the accident had lost its ability from time to time 
to detect trains, we physically inspected each of the 3,000 
track circuits in our rail system. And we are also running 
daily computerized tests on those circuits.
    Third, we have arranged for an independent review of our 
automated transit train control system. In working with the 
National Transportation Safety Board, this review will be 
conducted by a group of outside transit signal experts. And I 
appreciate the assistance provided by the American Public 
Transportation Association for assistance in this effort.
    Finally, while they are safe to operate, I decided to place 
our oldest railcars in the center of trains. We plan to replace 
those cars as soon as funding is available and funding is 
secured.
    As you may be aware, yesterday the National Transportation 
Safety Board recommended that Metro enhance redundancy in our 
train control system by using real-time data and automatic 
alert. We have already begun contacting vendors with experts or 
expertise in this area. And we are preparing an estimate of the 
cost to develop and implement the automated system.
    When we are able to determine the steps necessary, we will 
move forward with this system. We will do what we have to to 
ensure that this system is put into place. However, it requires 
a specialized development for the WMATA system, but we would 
dedicate the necessary resources to implement this 
recommendation as soon as that system is ready.
    This meeting and this process will not begin next week; it 
has already begun. And, in fact, a meeting is scheduled 
tomorrow morning with the vendors within WMATA to begin the 
process of moving forward to meet the recommendations by the 
National Transportation Safety Board.
    We also recognize and I realize that this is an 
inconvenience to many of our customers, of operating our system 
the way we are doing so today. We have not been able to return 
to pre-accident levels of service, and we will not be able to 
do so until this investigation is completed.
    Finally, I would like to thank the Subcommittee on 
Appropriations for including the $150 million in funding for 
Metro's capital needs. Our capital needs over the next 10 years 
total $11.4 billion. And what I am asking that this committee 
and the Congress do is to pass the compact amendments necessary 
to make the changes in our compact and to also appropriate the 
$150 million and pass it through the House so we can receive 
those funds for needed capital improvements.
    Thank you.
    [The prepared statement of Mr. Catoe follows:]

    [GRAPHIC] [TIFF OMITTED] T2712.028
    
    [GRAPHIC] [TIFF OMITTED] T2712.029
    
    [GRAPHIC] [TIFF OMITTED] T2712.030
    
    [GRAPHIC] [TIFF OMITTED] T2712.031
    
    [GRAPHIC] [TIFF OMITTED] T2712.032
    
    [GRAPHIC] [TIFF OMITTED] T2712.033
    
    [GRAPHIC] [TIFF OMITTED] T2712.034
    
    [GRAPHIC] [TIFF OMITTED] T2712.035
    
    [GRAPHIC] [TIFF OMITTED] T2712.036
    
    [GRAPHIC] [TIFF OMITTED] T2712.037
    
    [GRAPHIC] [TIFF OMITTED] T2712.038
    
    [GRAPHIC] [TIFF OMITTED] T2712.039
    
    Mr. Lynch. I thank the gentleman.
    Ms. Hersman, you are now recognized for 5 minutes.

               STATEMENT OF DEBORAH A.P. HERSMAN

    Ms. Hersman. Thank you for the invitation to appear before 
the committee, Mr. Lynch, Mr. Chaffetz, and members of the 
regional delegation. Ms. Norton has been a long supporter of 
NTSB's investigations. And Mr. Van Hollen and Connolly, who is 
my representative, have been very engaged on this accident 
investigation.
    Since 1982, the NTSB has investigated seven accidents on 
WMATA's property, resulting in 76 recommendations on a variety 
of issues. I am here today to brief you on the accident that 
occurred on June 22nd involving two Red Line trains traveling 
inbound near the Fort Totten station.
    There were nine fatalities and scores of injuries 
transported to local area hospitals. On behalf of the Board, I 
would like to extend our thoughts and prayers to those who lost 
loved ones and those who remain in recovery from this accident.
    We launched our team within hours of the collision. Parties 
to our investigation involve many of the people that you see at 
this table: WMATA, FTA, Amalgamated Transit Union that was at 
the table before, and the Tri-State Oversight Committee.
    We were also assisted, as is customary in our accident 
investigations, by the FBI's Evidence Response Team, 
documenting evidence on scene, as well as in the early stages 
of the investigation by many local responders from the area, 
who did a great job assisting us.
    Let me begin by reviewing some factual information about 
our investigation.
    The standing train, Train 214, was a six-car train 
consisting of four 3000-series cars and two 5000-series cars 
placed at the rear of that train. It had stopped before 
entering the Fort Totten station. It was following a train that 
was servicing the platform at Fort Totten. The striking train, 
Train 112, was a six-car train composed of six 1000-series 
cars, and it was following Train 214.
    As you heard from the eyewitness to the accident, when we 
interviewed passengers after the accident, they told us that 
there was an announcement that came onboard that there was a 
train ahead of them, they slowed or stopped, and then they 
began accelerating, and then the collision occurred. There was 
no communication between the train operators and Metro's 
Operations Control Center prior to the collision.
    Metro's railcars are approximately 75 feet long. That lead 
car of the striking train telescoped into this last car of the 
standing train. Approximately 50 feet of that car's survivable 
space, or two-thirds of that car's survivable space, was 
compromised in the collision. Our investigators found metal-to-
metal compression marks consistent with heavy braking on both 
rails of the track for about 125 feet about 425 feet before the 
point of impact.
    Trains operate under the direction of WMATA's Operations 
Control Center [OCC]. They utilize an automatic train control 
system that is supplemented by wayside signals at 
interlockings. The system is designed to prevent collisions 
regardless of whether or not trains are operating in the manual 
or the automatic mode. Speed commands for individual train 
movements should not allow for more than one train to occupy a 
track circuit at a time. And the maximum authorized speed for 
this section of track was 59 miles per hour.
    Post-accident testing shows that the track's circuit at the 
accident site intermittently failed to detect a train that was 
at that location. On the day of the accident, the system did 
not detect the stopped train, and the following train did not 
receive speed commands to slow or to stop prior to the 
collision.
    WMATA's maintenance records show that, on June 17th, 5 days 
before the accident, that an impedance bond, pictured in the 
slideshow, was replaced in the track circuit as part of a 
multi-year program for scheduled maintenance.
    Investigators are continuing to examine the train control 
system's circuitry and recorded data to better understand how 
the train control system functioned prior to the accident. In 
addition, we will be conducting, with the assistance of WMATA, 
some sight distance tests on that stretch of track between 
Takoma and Fort Totten this weekend.
    The Operations Control Center computer system receives 
real-time train location data. It displays this information on 
a monitor in the control center. After a post-accident review 
of the circuit data, WMATA reported that the track circuit 
intermittently lost its ability to detect a train after June 
17th.
    WMATA has now assigned personnel to review recorded data 
once a day to identify anomalies systemwide. They do not have 
an automatic monitoring system that would identify and promptly 
report a situation in which a train stops being detected by the 
system.
    That is why we issued two urgent safety recommendations 
yesterday, one to WMATA and one to FTA. The recommendation to 
WMATA asks that it enhance the safety redundancy of its train 
control system that monitors track circuit data so that it can 
detect any lost trains and immediately alert the control center 
so that they can stop or slow the trains. The safety 
recommendation to FTA urges it to alert other transit operators 
that have systems similar to Metro's to determine if their 
systems have adequate safety redundancies and, if they don't, 
to take corrective action.
    Thank you for inviting me here today. I am happy to answer 
any questions.
    [The prepared statement of Ms. Hersman follows:]

    [GRAPHIC] [TIFF OMITTED] T2712.040
    
    [GRAPHIC] [TIFF OMITTED] T2712.041
    
    [GRAPHIC] [TIFF OMITTED] T2712.042
    
    [GRAPHIC] [TIFF OMITTED] T2712.043
    
    [GRAPHIC] [TIFF OMITTED] T2712.044
    
    Mr. Lynch. Thank you. Thank you for your testimony.
    Mr. Rogoff, you are now recognized for 5 minutes.

                  STATEMENT OF PETER M. ROGOFF

    Mr. Rogoff. Thank you, Mr. Chairman, Ranking Member 
Chaffetz, and other members of the subcommittee. The Federal 
Transit Administration appreciates very much being called to 
testify on the overall safety posture of our Nation's rail 
transit systems and the FTA's very limited role in overseeing 
rail transit safety.
    As we address this issue of transit safety, it is essential 
to remember that rail transit remains our safest form of 
surface transportation by far. The citizens of the Washington 
area are always far safer riding in a Metro railcar, any type 
of Metro car, than traveling on the highway. The Metrorail 
system has experienced 13 on-board crash-related fatalities 
during its 33-year history. And while every one of those 
fatalities has been a tragedy, the fact is that automobile 
accidents on the roads of the Washington area claim the same 
number of fatalities every 2 weeks. Any proposal that could 
result in passengers getting in their cars versus riding Metro 
will immediately degrade safety.
    That said, the Obama administration believes that there are 
improvements and reforms that can and should be made to make 
our transit systems even safer.
    While it is not very widely known right now, our Nation's 
rail transit systems operate under two very different Federal 
safety regimes. Commuter rail systems, like MARC and the VRE, 
are subject to the Federal Railroad Administration's very 
extensive safety regulations. Those rail transit systems are 
governed by national mandatory safety standards and may undergo 
onsite spot inspections and audits by Federal inspectors. Those 
Federal safety inspectors are empowered to dictate operating 
practices and assess fines for any deficiencies found.
    By contrast, rail transit systems, like Washington Metro, 
the New York City Subway, the trolley operations and the ``T'' 
in Boston, and 45 other systems are subject to a very different 
Federal safety regime. In the case of those rail transit 
systems, the States are expected to establish and implement a 
safety program. The role of the Federal Transit Administration 
is limited to setting minimum program requirements and assuring 
that the States have a safety authority in place.
    In performing our safety oversight role, the FTA is 
prohibited, as a matter of Federal law, from dictating safety 
practices or setting mandatory national standards. FTA does not 
have the authority to assess fines, set operating rules, or 
even mandate the level of technical expertise the State 
authorities must have. And, unfortunately, the vast majority of 
these State agencies, including the tri-State authority that 
oversees Metro, are very thinly staffed.
    The distinction between these two safety systems was 
plainly apparent at the site of the recent Red Line crash. When 
I visited the crash site at the invitation of Member Hersman, I 
saw a chainlink fence that separated the Metro tracks from 
other tracks in the same corridor that served Amtrak, MARC, and 
CSX trains. Under our two separate safety systems, the Federal 
inspector that periodically inspects the tracks serving Amtrak 
and MARC cannot inspect the track on the other side of the 
fence, the side serving Metro.
    As the new team has come on board with the Obama 
administration, we find the status quo to be unacceptable and 
we expect to propose reforms. Secretary LaHood has established 
a multi-modal departmental committee chaired by Deputy 
Secretary Porcari to identify alternative approaches to address 
what we consider a gap in transit safety oversight. The team 
will review the different safety authorities and inspection 
regimes we have at DOT with an eye toward proposing reforms to 
Congress soon.
    Now, on the matter of financing, it is impossible to 
discuss the issue of safety of our Nation's transit systems 
without simultaneously discussing the financing of those 
systems. At the FTA, we find that the systems that are 
adequately financed are those with a dedicated funding source 
that provides a predictable revenue stream, and WMATA does not 
have such a system.
    WMATA does benefit from a regular stream of Federal formula 
grants that totaled approximately $220 million in 2008. Also, 
WMATA operates in the only region of the United States where 
the Federal Government has mandated transit benefits for all 
Federal employees. That generates an additional $170 million 
each year in fare box revenue for WMATA.
    In addition to these Federal resources, the Secretary and I 
do support congressional efforts to make matching Federal 
grants available to WMATA for 2010, while working within the 
overall spending ceiling established in the President's annual 
budget. We believe strongly, however, that these Federal 
matching funds must be used by WMATA to address the most safety 
critical issues in the system as identified by appropriate 
vulnerability assessments.
    I want to make clear that in calling for reform and 
endorsing additional funding for WMATA, I do not intend to 
leave the impression that the cause of the recent Red Line 
disaster was related to inadequate safety rules, inadequate 
safety oversight, inadequate funding, or poor compliance on the 
part of Metro. Only the NTSB investigation will reveal to us 
the true cause or causes of the accident. And we at the FTA 
stand ready to review and implement any recommendations that 
arise from the Board's investigation, just as we did yesterday 
evening, while working within the very limited safety 
authorities we have under current law.
    Mr. Chairman, my time is up. I hope I will have an 
opportunity later to respond to the concerns raised by Mr. Mica 
regarding our grant rules. And maybe we can do that in Q and A.
    And, with that, I thank you for the opportunity to testify.
    [The prepared statement of Mr. Rogoff follows:]

    [GRAPHIC] [TIFF OMITTED] T2712.045
    
    [GRAPHIC] [TIFF OMITTED] T2712.046
    
    [GRAPHIC] [TIFF OMITTED] T2712.047
    
    [GRAPHIC] [TIFF OMITTED] T2712.048
    
    [GRAPHIC] [TIFF OMITTED] T2712.049
    
    Mr. Lynch. I thank the gentleman.
    Mr. Madison, you are now recognized for 5 minutes.

                   STATEMENT OF ERIC MADISON

    Mr. Madison. Distinguished members of the committee, good 
afternoon, and thank you for inviting me to discuss rail 
operations and safety at the Washington Metropolitan Area 
Transit Authority [WMATA], and the tragic accident of June 22, 
2009, as well as the activities of the Tri-State Oversight 
Committee [TOC].
    Before I begin, I would like to take this opportunity, on 
behalf of the members of the TOC, to express our heartfelt 
sympathies and condolences to the victims and the families of 
those who were affected by this tragic accident. We will 
continue to keep them in our thoughts and prayers.
    The members of the TOC are fully committed to working 
closely with WMATA, the Federal Transit Administration, the 
NTSB, and Congress to improve safety operations and prevent 
another similar accident from ever occurring again.
    My testimony will provide a brief overview of the State 
Safety Oversight program in general, as prescribed by 49 Code 
of Federal Regulations, Part 659, and the TOC's roles, 
responsibilities, and authorities. I will also discuss the 
TOC's recent history and address the limitations faced by the 
TOC in performing safety oversight and regulation of WMATA.
    The TOC is the State Safety Oversight agency [SSO], 
responsible for overseeing Metro's rail safety program. Under 
49 CFR, Part 659, each State with a rail transit agency, like 
the Metro system, that receives FTA funding and is not under 
the jurisdiction of the Federal Railroad Administration must 
designate a State agency to carry out the SSO requirements. The 
TOC is a joint effort of staff from State government agencies 
from the District of Columbia, Virginia, and Maryland.
    State safety oversight agencies approve a transit agency's 
safety and security plans, review accident reports and 
corrective action plans, and conduct periodic safety audits, 
among other tasks. Unlike some transportation regulators like 
the FAA and the FRA, the TOC lacks the authority to levee fines 
or enforce civil penalties for noncompliance.
    In 2006, the Government Accountability Office conducted an 
assessment of the SSO program on a national level, including a 
case study on multistate SSOs including the TOC. The GAO report 
made note of administrative, financial, and organizational 
issues facing the TOC, to which we have responded by 
streamlining our organization, further empowering the TOC 
Chair, and improving our working relationship with WMATA.
    In addition to the GAO report, the Federal Transit 
Administration audited the TOC program in 2007. The audit 
resulted in eight findings of ``noncompliance'' and four 
findings of ``compliance with recommendations.'' Working with 
WMATA, TOC was able to close all but two findings of 
``noncompliance'' and one finding of ``compliance with a 
recommendation.'' The TOC is in the process of preparing its 
next audit response submission to the FTA and expects to 
satisfy the three remaining audit findings in the near future.
    While the administration of the TOC program has improved, 
significant challenges remain. These include the lack of a 
traditional regulatory structure and continued funding 
constraints.
    The TOC has limited regulatory authority under 49 CFR, Part 
659. The only authority inherent to 659 is the ability of the 
SSO to recommend to the FTA to withhold 5 percent of grant 
funding if the rail transit agency is noncompliant. Compliance 
with the SSO program is a requirement for FTA funding; however, 
SSO agencies themselves receive no FTA funds for program 
administration.
    Despite its limitations, State safety oversight programs 
nationwide have improved and expanded in the last few years. 
For example, the FTA now funds some training through the 
Transportation Safety Institute as well as hosting workshops 
for SSO managers. Such courses have helped to improve the 
program overall and should be continued.
    The TOC is professionally and personally invested in the 
safety and security of the Metrorail system. Our members, as 
well as their friends and loved ones, are regular Metrorail 
riders. We hope our testimony can assist Congress with 
assessing and improving the SSO program and, in turn, improve 
rail transit safety nationally.
    With that, I conclude my statement and look forward to your 
questions.
    [The prepared statement of Mr. Madison follows:]

    [GRAPHIC] [TIFF OMITTED] T2712.050
    
    [GRAPHIC] [TIFF OMITTED] T2712.051
    
    [GRAPHIC] [TIFF OMITTED] T2712.052
    
    [GRAPHIC] [TIFF OMITTED] T2712.053
    
    [GRAPHIC] [TIFF OMITTED] T2712.054
    
    [GRAPHIC] [TIFF OMITTED] T2712.055
    
    [GRAPHIC] [TIFF OMITTED] T2712.056
    
    Mr. Lynch. I thank the gentleman.
    I now yield myself 5 minutes.
    We obviously have some votes pending, but what I would like 
to do is to keep the hearing going so that we are not here at 
an unreasonably late hour.
    Mr. Graham, in trying to follow the budgetary priorities 
for the Washington Metro Area Transportation Authority, I know 
that the administration and Oversight Committee just 
preliminarily approved a $177 million system infrastructure and 
rehab program.
    And trying to follow those items, it appears--and I may be 
wrong, so I am not opposed to being corrected on this--like the 
project includes new escalators, platform rehab, track repairs, 
upgrades to the train power system and, most relevant here, the 
automatic train controls, but I could not find any allocation, 
probably because of the significant cost, to new train sets. In 
other words, retiring that 1000-series and bringing in the 7000 
or whatever the next iteration of that train set might be.
    What are the plans? And does the work that was done last 
night by the local regional delegation and Mr. Olver on the 
Transportation Appropriations Committee of $150 million change 
the dynamic here, and what might we expect?
    Mr. Graham. Mr. Chairman, it most definitely does change 
the dynamic. As you know, we have an RFP, which we have 
received bids on, for replacement of the 1000-series cars, as 
well as new cars for the expansion to Dulles, and what we are 
waiting on is the dedicated funding. There is no question about 
it.
    And if I may add, in terms of the $177 million Red Line 
rehab, it has gone through the committee but has not been 
approved by the board of directors. In fact, our board is well 
aware of the fact that there may be additional demands that 
will take a higher priority than what has been set forth in 
that proposal.
    Mr. Lynch. OK.
    I still have several minutes left, and I am going to have 
to take these answers on the record. I would like to ask each 
of you what you think the priorities are for the next step. 
What has to happen next in terms of whatever you think the top 
priorities should be, whether it is in response to this 
accident or infrastructure needs, operational needs, or the 
grant programs that Mr. Rogoff was talking about earlier.
    And I am going to yield, and I am going to allow the 
answers to go on the record. And I am going to ask Mr. Eleanor 
Holmes Norton to take the chair and to continue with the 
process and use her allocation of time.
    But could we just use the next few minutes to go down the 
line and list what the priorities should be?
    Mr. Catoe.
    Mr. Catoe. Mr. Chairman, since I am next in order, I will 
go.
    The first response and use of moneys will be to respond to 
the recommendations of the National Transportation Board 
regarding this accident. That is the first commitment this 
agency will make in spending its dollars. Any future 
recommendations concerning our system, we need to have moneys 
to respond to those.
    In order of magnitude, the next response would be the 
replacement of the 1000-series cars. They are very old; they 
need to be replaced. And, as our chairman, Mr. Graham, has 
said, we have had the RFP and we are ready to go; all we need 
is the funding to do that.
    Third, as I have mentioned many times, Metro has an urgent 
need of additional capital funds to maintain its infrastructure 
in a state of good repair. And that would be the third step.
    So, first, safety from the requirements of this accident, 
any other safety needs, the replacement of the 1000-series 
cars, and continuous work on the aging infrastructure of the 
system.
    Mr. Rogoff. As far as priorities for our role in the FTA, I 
think our highest priority right now is to get a reform plan 
developed under Deputy Secretary Porcari and get that plan to 
Congress.
    We have a number of concerns as we look at statutory 
authorities before us, the inspection resources that Mr. 
Madison and the other SSOs do not have, and the authorities 
that we do not have within the FTA to mandate adequate 
resources. And that is what we are doing, as it relates to 
developing reform plans.
    As it relates to specifically the needs of WMATA, I think 
the most important thing is that we not prejudge the outcome of 
the investigation; that we keep our mind open in terms of what 
is the highest and most important capital need for those 
matching dollars that, at least as an interim step, seem to be 
coming forward from Congress.
    Because railcars, while important, are really our last line 
of defense in an accident. The most important thing we always 
must be focused on is avoiding the accident and collision 
entirely, as Mr. Catoe has been very articulate about. You are 
not going to develop a railcar that is going to leave 
passengers harmless if they are colliding at 59 miles per hour.
    So we really need to be focused on capital investments that 
avoid that incident and similar incidents, and develop a 
capital plan around those safety assessments.
    Ms. Norton [presiding]. Mr. Madison.
    Mr. Madison. Our first priority is to continue working with 
WMATA and the NTSB on the investigation and to implement the 
recommendations that come out of the final report.
    Our next priority would be to work on improved legislation 
for the SSOs that give us greater authority to actually make 
some serious recommendations and to have those rules be taken 
seriously.
    And I guess our last priority is increased funding that 
would also help with continued training for SSOs and also for 
staffing.
    Ms. Norton. Ms. Hersman, did you have a list of priorities?
    Ms. Hersman. I would say the NTSB's first priority is to 
get to the bottom of what has happened in this accident 
investigation, and then we can make appropriate recommendations 
to WMATA and others who may need to be the recipients of those 
recommendations. We have already begun that, working with the 
others, issuing an urgent recommendation yesterday.
    With respect to the priorities for WMATA, FTA, and others, 
it is very encouraging to hear their responses to the question 
about what their priorities are. I think we would say, from the 
Safety Board, our priorities would be for them to implement the 
safety recommendations that we have issued in the past. And 
what I heard from many of the responses here was that was what 
they were going to be looking at doing.
    We have now 11 open recommendations to WMATA, with the 1 we 
issued yesterday. And some of those are in open status; two of 
them are in an unacceptable status. We were very pleased with 
the quick response that we received from FTA and WMATA 
yesterday when we issued our recommendation, that they are 
beginning to work on it immediately.
    So I think, going forward, we'd like to see implementation 
of our recommendations.
    Thank you.
    Ms. Norton. Mr. Graham.
    Mr. Graham. Madam Chair, may I add something about the 
probable cause issue because we are extraordinarily concerned 
about this. We are very respectful of the NTSB's pronouncements 
and all of the work that they are doing, some of which is 
central, some of which is peripheral, but let me make some 
basic points here.
    On June 17th, this signal device--let me call it a device, 
because it has various component parts--which has become the 
focus of suspicion about the probable cause of this accident, 
was replaced in the course of routine scheduled maintenance. 
There was no indication, to our knowledge, of any problem 
relating to the functioning of this device.
    On June 22nd, of course we had this horrendous accident. 
And thereafter we went back, and we saw that, in a subsequent 
review of this device functioning, there was this fluttering, 
so that at one point it was signaling the presence of a train 
and at another point it wasn't, which was obviously a very 
substantial problem.
    But what happened was we replaced the device. And this is a 
very important point, Madam Chair. We replaced the device. You 
would think that would remedy the issue, that with a new device 
there might be some technical or other problem with the old 
device, that we would have solved the problem insofar as this 
particular situation. In fact, Madam Chair, the new device that 
was replaced continued the same fluttering as the former 
device.
    And so we are left--and I am making this point, Madam 
Chair, very intentionally. The Metro board and the Metro 
management have issued a statement on this. We are left with a 
very compelling mystery as to what is going on here. And we 
have to focus all of our energies in determining just what is 
wrong.
    And let me say there is another significance to this, and 
the other significance is that, for those who are concerned 
about the slow movement of our trains and the fact that we are 
on manual operation, I think with this mystery outstanding it 
is very important that we do just that until we figure out what 
happened. This is a probable cause situation, we believe, where 
the answers and the solutions are not immediately apparent.
    Thank you.
    Ms. Norton. Thank you very much, Mr. Graham.
    Indeed, that segues into one of my questions. Mr. Catoe 
initially thought this was a ``freak occurrence'' with the 
flickering on the track circuit. You indicate, Mr. Graham, the 
flickering continues.
    I believe that you are now testing on a daily basis, and I 
must ask you, was there any reason why more frequent testing 
was not done before?
    Mr. Catoe. I can sit here today and look back and say, was 
the testing that we did on a monthly basis insufficient? You 
know, to go back in time and to make a conscious decision to 
look forward at the degree of testing, our testing for 30 years 
served us well. But something----
    Ms. Norton. Is this a new device of a kind you never used 
before?
    Mr. Catoe. No, this is not a new device of the kind we have 
never used before.
    Ms. Norton. So you have been running this device all along, 
and, despite tests and changes, you have never seen the 
flickering before?
    Mr. Catoe. I am not aware of flickering as a result of this 
device. And when I say ``I am not aware,'' I have not 
personally found that in any of the records, of that occurring. 
The investigation is still under way, and I think we will 
continue to investigate and review our records to determine if 
that is the case.
    But the question has been with change processes. In the 
urgent recommendation from the NTSB yesterday, they thought 
that was a good first step, but we are required to do more, 
and, as a result of that, we are going to be doing more.
    Ms. Norton. And I repeat, this hearing is not about 
assigning cause. We don't have the slightest idea. Nobody could 
possibly know. This hearing is being held because the public 
needs to know what you know now.
    Mr. Catoe. Right.
    Ms. Norton. And we are very pleased that, as the 
information develops, you are making that information public 
and transparent.
    Mr. Catoe, I would like to ask about the recent decision to 
put the 1000-series trains in the middle, with presumably more 
crashworthy trains at either end.
    First, did the union recommend that, as I believe the union 
has indicated? And has it been done elsewhere? We are stuck 
with 30 percent of your fleet this way.
    Mr. Catoe. Let me answer the second part first because that 
is the easiest. I am not aware of it being done elsewhere. The 
cars are specifically placed based upon some decisions of 
crashworthiness.
    Ms. Norton. Did it occur to no one at WMATA, given the fact 
that you were stuck with these trains because Congress had not 
come forward with money and there is no other way to raise it, 
that perhaps that would have been the better thing to do?
    And, Ms. Hersman, did you ever recommend that?
    Mr. Catoe. WMATA and myself were focused on making sure 
that crashes did not take place. As mentioned before, at 59 
miles per hour, you might have vehicles that will not so-called 
``telescope'' as much, but you are going to have severe damage. 
Our focus was keeping the system safe and to prevent accidents 
from occurring.
    Ms. Norton. Well, Ms. Hersman, you are the expert, or at 
least the Transportation Board is the national expert. You know 
these people cannot replace these cars. And you have done your 
duty over and over again and said, ``Replace those cars.'' That 
message needed to come here, and of course it wasn't heard in 
time.
    Why did you not recommend what looks like a common-sense 
recommendation that doesn't require a bunch of experts: ``Hey, 
at least don't make the crash occur in the front end or the 
back end?'' And that is where crashes are first felt. ``Take 
these 1000-series cars and don't line them all up like sitting 
ducks,'' the way they were on June 22nd. Why did you not 
recommend that?
    Ms. Hersman. Ms. Norton, we recommended after the Shady 
Grove accident in 1996 that Metro look at all of their fleet, 
in consultation with some engineering experts, to determine 
what needed to be done to improve the crashworthiness of their 
entire fleet, whether it was retrofitting, making those cars 
more robust----
    Ms. Norton. But that is not my question, Ms. Hersman. These 
people are not the crash experts. And my question is very 
specific: Did it occur to anybody at NTSB what, I must tell 
you, was the first thing to occur to know-nothing me and, I 
suspect, to many people in the region? Because I was on 
washingtonpost.com for an hour right after the accident. And 
somebody wrote in, ``Why didn't they just put one of the better 
cars at each end?'' I said, ``You have read my mind. I'll make 
sure I will ask that question of Mr. Catoe and the experts.''
    My question is very simple. You knew these people could not 
possibly replace the trains. Over and over again, you said, 
``Do the impossible.'' Absent any way for them to possibly 
replace 30 percent of their fleet--you didn't recommend that 
they take them out of service--why did the Transportation Board 
not at least recommend this rather, low-tech, low-cost step? I 
mean, was there a technical reason why? Is it just so in-your-
face that even the experts didn't see it?
    Ms. Hersman. Well, I think the challenge here is, because 
there are no standards and there is not crash testing done, 
that we don't have the engineering data to necessarily support 
the placement----
    Ms. Norton. Well, in that case, should they do this or not, 
Ms. Hersman? We don't know anything, according to the prior 
testimony, about crashworthy standards, thanks to the Federal 
Government and Mr. Rogoff's agency particularly because we have 
disallowed you.
    So I am asking, is what they did the right thing to do? Or 
now, in hindsight, would you say that doesn't make a lot of 
difference?
    Ms. Hersman. I think the Safety Board has not taken a 
position on whether or not putting the cars in the center was 
the right thing to do. We did ask them to look at the 
evaluation of these cars in a scientific way----
    Ms. Norton. I must tell you, Ms. Hersman, that falls short. 
Even if we give Mr. Rogoff the kind of perhaps authority he 
ought to have, I can tell you without fear of contradiction--
leave aside the recession we are in, let's suppose we are in 
the false boom economy we just came out of--that there is no 
transit system in the United States that isn't operating with 
old cars and cannot replace them quickly.
    Therefore, in this hearing, we are really looking for 
answers. It is real easy to say, ``Spend a billion dollars, and 
you will be safe,'' but I have to ask you whether you are 
prepared, at least in the future, to look at interim 
possibilities when the only answer the NTSB has been able to 
come up with since 2004 is ``spend some money.''
    The public needs to know, short of spending money, do the 
experts have a response that can increase our feeling of safety 
when we get aboard the Red Line that we have no alternative but 
to board?
    Could you consider that, in the event your recommendation 
costs a lot of money, and given what you know about resources, 
would you consider offering recommendations short of spending 
the money that could increase safety?
    Ms. Hersman. Ms. Norton, it is completely up to the 
recipients who are the experts in their----
    Ms. Norton. It was up to the recipients----
    Ms. Hersman [continuing]. To respond to us----
    Ms. Norton. Ms. Hersman, I am not going to let you get away 
with that.
    Ms. Hersman [continuing]. To respond to us with 
alternative----
    Ms. Norton. No. That is just not fair. It was up to the 
recipients to buy new cars. You had no hesitation two or three 
times telling them, when they rolled back, when they rolled 
forward, to change the cars. That, you didn't mince your words 
on.
    We are dealing with millions of people who get on these 
trains, including people who visit the city. We are trying to 
learn whether or not there is anybody interested in doing what 
seemed to us to be minimally necessary.
    If you do not have the money, what do the experts have to 
say to the system about interim steps? I think that is a fair 
question, and you either are prepared to look into that or not.
    And I want to know if you are prepared to look into interim 
steps, such as Mr. Catoe has now taken, such as the union 
apparently advised, neither of which is presumed to have the 
background and expertise you do. Are you prepared to consider 
interim steps when the funds are not available to do what you 
think is the best thing to do, yes or no?
    Ms. Hersman. Yes. And we often consider interim steps.
    Ms. Norton. That is all I need to know. We are not trying 
to second-guess anyone. We are trying to be forehanded. We are 
really not blaming anyone for anything. We think that this 
accident was so unforeseeable that our only duty here is to 
say, what little things can we do to make sure this doesn't 
happen again?
    Frankly, I think that the victims and the public is 
entitled to hear any interim step we can take, however minor, 
besides saying ``spend a gazillion dollars,'' which everybody 
knows WMATA doesn't have, and, Ms. Hersman, we don't have it 
either.
    I have to ask you, Mr. Rogoff, the region met House and 
Senate Members, and the first thing we thought of was, 
goodness, where are the Feds, or you, more specifically. And 
you say in your testimony that the FTA is prevented by law from 
establishing safety standards, requiring inspections of the 
kind that are required on other common carriers, etc.
    What Federal law prohibits you from acting?
    Mr. Rogoff. That specifically----
    Ms. Norton. What Federal law prevents you from acting? And 
do you believe that there is at least a minimum obligation on 
the part of Federal authorities to adopt minimum standards that 
perhaps States and cities can go beyond, but minimum standards, 
so that Ms. Hersman knows, minimally, what is required, so that 
the operators know? Would that not be a reasonable thing for 
the Congress to do?
    Mr. Rogoff. Well, we certainly think so.
    I want to answer both parts of your question.
    The language that has been both litigated and found by the 
courts to be most limiting to us is Section 5334(B)(i) of Title 
49. And I am just going to read it, because it is short enough. 
``Except for purposes of national defense or in the event of a 
national or regional emergency, the Secretary may not regulate 
the operation routes or schedules of public transportation 
systems.''
    Ms. Norton. What is the date on that, please?
    Mr. Rogoff. This has been in law, really, from the 
beginning of the Urban Mass Transportation Act, going back a 
great many years.
    Ms. Norton. What was the reason, do you believe, we 
prohibited ourselves from providing for the safety of the 
public and rapid transit the way we do in other common 
carriers?
    Mr. Rogoff. I think it is twofold, Mrs. Norton.
    One, from the birthing of these agencies, going back to the 
birthing of DOT in 1966, UMTA grew up as part of the Urban 
Renewal and Urban Redevelopment Agenda in the Johnson 
administration. And it was thought to be a grantmaking agency 
and persisted as a grantmaking agency----
    Ms. Norton. So should some other Federal agency have been 
charged as more and more cities and States developed mass 
transit systems?
    Mr. Rogoff. Well, you know, what has developed is somewhat 
of a hodgepodge system where we do have commuter rail 
operations under the Federal Railroad Administration, with 
hundreds of Federal inspectors across the country.
    Ms. Norton. So the problem was the transit systems weren't 
under the usual regulatory agency, the Federal Railroad 
Administration?
    Mr. Rogoff. Well, those that are said to be off the 
National Railroad System, which is to say they are in a closed 
system. So you even have some operators that run both closed 
systems, like the MTA in New York runs the New York City 
Subway. They also run the Long Island Railroad in Metro North. 
Long Island Railroad and Metro North are inspected by the FRA; 
the subway is not.
    Ms. Norton. So typically, there must be dozens of subway 
systems across the Nation that are by the seat of their own 
pants.
    Mr. Rogoff. Well, 48 systems, to be exact, in about 28 
States. And to the extent that they are regulated, they are 
regulated by these State organizations, such as Mr. Madison 
speaks. And as you heard me and Mr. Madison say, Mr. Madison is 
concerned that they don't have enough authority in their legal 
statute, and we don't have the ability even to set minimum 
standards for them. We can set minimum program requirements, 
but that gets into the issue of available funding.
    I mean, one of the great concerns that we are looking at as 
part of our process as we look at this, is the scant funding 
and the scant staffing of those organizations.
    Now, I would like to use that just for a second to segue 
into an issue that Mr. Mica raised, because it is a source of 
considerable confusion and concern. Mr. Mica is asking the 
question, ``Well, FTA, why don't you let your grantees use 
their Federal money to provide grants to the SSOs, the State 
safety organizations?''
    Our simple and first answer to that is that it is a 
conflict of interest that we don't think should abide. We do 
not believe that we would ever want to have a situation where 
the grantee is using their funds, whether it is through a 
Federal grant or other grants, to pay for the operating costs 
of their regulators.
    Ms. Norton. Now, that parallels the Federal Railroad 
Administration----
    Mr. Rogoff. Exactly. In fact, there used to be rail safety 
user fees that went into a fund, and those fees were repealed 
by the Congress because they did not want the users to be 
paying the operating costs of their regulators and inspectors.
    You know, we just had a Southwest flight land with a hole 
in it about the size of a football, about 12 by 18, last night. 
It lost compression. The FAA has dozens of inspectors that 
inspect nothing but Southwest Airlines aircraft. We would never 
want Southwest Airlines to be paying the salaries of those 
inspectors. And I don't think we should necessarily----
    Ms. Norton. So you don't think you are the people who ought 
to be regulating?
    Mr. Rogoff. What I am saying is we are not comfortable 
having our grantees use their moneys to pay for their 
inspectors. We think they should be paid for adequately, 
robustly, but by someone else.
    Ms. Norton. Again, as the money was in our court, I think 
this issue is in our court. I needed your testimony on the 
record, however, because if we want to really do something 
besides put up the money in the future, considering that what 
happened here could happen in 48 systems, we have an obligation 
now, now that we know from this experience here.
    Mr. Madison, my staff was charged with researching issues 
about this crash, and they inform me that they couldn't even 
find a Web site for your agency, the Tri-State Oversight 
Committee that has the jurisdiction that I understand how 
minimal it is--Mr. Rogoff does not have.
    Why is there such a lack even of public information letting 
the public know what it is you do?
    Mr. Madison. The Tri-State Oversight Committee is formed up 
of members from each of the three jurisdictions. In relation to 
the question about the Web site, we have had some discussion 
about that because we are not really sure who would maintain 
the Web site and what information we would have on there.
    Ms. Norton. Well, I mean, you would maintain it. Do you 
have any staff?
    Mr. Madison. No, I mean, our staff. If it would be----
    Ms. Norton. How many staff do you have?
    Mr. Madison. We currently have eight staff members.
    Ms. Norton. Well, couldn't you just say, ``You will 
maintain the Web site?''
    Mr. Madison. But the staff are in three different 
jurisdictions, and we work out of different agencies.
    Ms. Norton. I see. ``All right, you, D.C., will do it this 
year. You, Virginia, will do it next year.'' I mean, why is 
that so difficult to just have a Web site at least so people 
can understand what, I will confess, I did not even know 
existed? I didn't know we had a regional safety organization.
    Mr. Madison. Well, we weren't sure if it was difficult or 
not. It was something that we hadn't considered.
    Ms. Norton. Well, would you consider putting up a Web site 
and assigning each jurisdiction around a duty with respect to 
that? I understand you are sparsely funded.
    That guess back to the jurisdictions, Mr. Graham. I mean, I 
know what you have had to go through just to get the funds that 
are necessary in order for us to release the funds. So I won't 
say how come you haven't been pouring money on this board, 
particularly since I can't believe people seek to find out that 
there has any such board, as it is, particularly well-funded. 
Given the lack of oversight from the transportation 
administration, I am sure that people decide to put their money 
elsewhere.
    Do you have regulations, Mr. Madison? Are they codified 
anywhere?
    Mr. Madison. Yes.
    Ms. Norton. What power do you have, if you are the only 
agency that can look at safety?
    Mr. Madison. Yes, in Part 659, there is a stipulation that 
the State safety oversight agency has to develop what is called 
a program standards and procedures. The Tri-State Oversight 
Committee does have a document called the ``Program Standard 
and Procedures.''
    Ms. Norton. Is that an enforceable document?
    Mr. Madison. No. Really what it is is it's a document that 
lays out how the TOC is executed, but also----
    Ms. Norton. So you don't have any enforcement authority, is 
that right? You can't tell them to do anything.
    Mr. Madison. No, ma'am.
    Ms. Norton. Well, I can understand your frustration, but 
apparently, you recommended that the FTA withhold 5 percent of 
Federal grants when WMATA was noncompliant, although you know 
full well that WMATA didn't have any way to get the money.
    Wasn't that counterproductive, to say, ``OK, take away 
their money,'' when they don't have any money? Wouldn't it be 
better to make some other kind of recommendation?
    Mr. Madison. Actually, the TOC hasn't made a recommendation 
to withhold funding to WMATA, because we understand that----
    Ms. Norton. You can do that, is that----
    Mr. Madison. Yeah, we can do that.
    Ms. Norton. OK. And you have not done that?
    Mr. Madison. No, we have not.
    Ms. Norton. Because you recognize that if that is all they 
are giving you, they are not giving you any tools. If all they 
can give you is to recommend that Federal funds be withheld, 
they haven't given you anything to work with. I understand 
that. Nor can the local agencies.
    So, as a practical matter, the reason I haven't much heard 
and the public hasn't much heard of your board is not that you 
don't desire to do regulation, but you don't have any authority 
to do any regulation, to maintain the safety of the system, or 
to enforce it, do you?
    Mr. Madison. No, we do not.
    Ms. Norton. I have to ask Mr. Catoe to comment on what we 
have read, indeed, what we have heard here in the Congress, 
unrelated to this accident, about lease-backs.
    Now, first let me say that, particularly because this 
hearing isn't about ``why didn't you do what you should have 
done,'' but about trying to explain why some things which may 
seem strange perhaps aren't, or certainly to give you the 
opportunity to explain them. Therefore, I preface this question 
by saying, you have been operating with no way to do capital 
costs, and the only system with no dedicated funding.
    So somebody, some smart financial person did what has been 
done all over the country; it may, indeed, have gotten us in 
this fix. We have been working with you to say take advantage 
of the fact that if you go to the banks to own the cars, they 
will have an incentive to buy the cars. Because, unlike you, 
Mr. Catoe, you will explain why, they can depreciate cars as 
they age because they can take the customary loss and write off 
taxes.
    So the notion occurs that the longer you keep the cars, 
from the point of view of banks, the better for them. And this 
arrangement apparently goes until 2014. And we are informed 
that if somehow these cars are retired before 2014, it's a 
straight-out money deal, it's not a safety deal, but a 
desperate transit authority with no way to get the money.
    But, correct me if I am wrong on this, that if you retire 
these cars before 2014, that the system would have to pay a 
$250 million penalty.
    Now, we have a 2006 letter after the NTSB recommendation 
that Metro replace these cars, where you say WMATA is 
constrained by tax advantage leases which require that WMATA 
keep the 1000-series cars in service at least until 2014.
    Were these cars in service for tax reasons because you were 
constrained by the way in which you had to finance the new 
cars, or, for that matter, what cars you had bought?
    Mr. Catoe. Well, let me go a little bit into the 
discussion. In the late 1980's, early 1990's, transit agencies, 
as well as other municipalities such as water districts, were 
able to basically sell their equipment, like rail cars, and 
receive a sum of moneys for doing that. They took some of the 
moneys and invested those dollars into their systems. A portion 
of the moneys they set aside to make payments, those lease 
payments back over the number of years that agreement was in 
place. That was an agreement that at the time was considered 
legal, and it was encouraged in certain corridors. Since that 
time, that type of arrangement has been determined to not be 
legal.
    Ms. Norton [presiding]. Yes. I want that on the record.
    At the time that you would have engaged in this, there was 
no indication from the IRS or Federal authorities that this 
should not be done?
    Mr. Catoe. No. There was no indication.
    Ms. Norton. Indeed, the financial incentive was, in fact, 
to do this.
    Mr. Catoe. It was a financial incentive for transit 
agencies and, again, other municipal operations, not just 
transit, to be able to do that.
    But to get to your question--and there is many pieces to 
that--of the 2006 letter in response to the NTSB 
recommendations on the replacement of rail cars, while 2014 was 
the coverage date under the agreement that we had with various 
banks on the 1000-series cars, the agreement did allow 
substitutions. For an example, if we decided to replace the 
1000-series cars, we could use a newer car to substitute for 
the time period remaining under that agreement. So the letter 
sent in 2006 had an error in it. It was an interpretation.
    Ms. Norton. So you weren't constrained, though, from 
replacing the cars. You would not suffer a $250 million 
penalty?
    Mr. Catoe. So long as we have a substitution, no.
    Ms. Norton. Do you have a substitution?
    Mr. Catoe. Yes, we have a substitution.
    So even though that is what the letter said at the time, 
since that period of time, WMATA has been in the process of 
replacing those vehicles, of identifying funding sources as 
well as developing the specifications for a new series of rail 
vehicles, which several months ago we did put out the bid, and 
we have received new bids on those vehicles. If we could 
replace those cars today, I would replace them and substitute 
another car until the agreement of 2014 has arrived.
    So, yes, we could; we could substitute other vehicles.
    Mr. Rogoff. Ms. Norton, I just think it's important to 
point out, for people who may not be familiar with these 
transactions, this is not a transaction that's unique to WMATA. 
We've got railcar operators across the country that during the 
same period that WMATA entered into these transactions did the 
same thing in order to leverage some additional dollars out of 
their rolling stock. I just want to clarify that, lest anyone 
think that this is a Washington Metro unique arrangement.
    Ms. Norton. Indeed. Thank you, Mr. Rogoff. In fact, we are 
aware that when WMATA came here, along with virtually every 
other transit system that was involved--which is every big 
transit system--to get some kind of relief from having to pay 
essentially penalties by having the loan called so quickly. Is 
that still a problem?
    Mr. Catoe. Well, yes. Again, let me go back with what 
happened. These agreements had to be insured by an insurance 
company. It just so happened that the majority of the 
agreements that we had were ensured by AIG.
    Ms. Norton. Just your luck, Mr. Catoe.
    Mr. Catoe. Yes. It was the perfect storm, so to speak.
    When their rating dropped, we were in technical default 
because the agreement specified that the insurers had to have a 
certain rating. Well, AIG was not the only one whose ratings 
dropped. Every other insurance company in the world, during 
these bad economic times, had their ratings dropped. So we and 
every other transit agency, as well as municipalities and water 
districts, were in technical default of our agreements.
    Given that the banks could no longer write off a loss 
because of an interpretation by the Internal Revenue Service 
that this transaction was not legal, they came after the 
various agencies demanding payment, even though we had made 
every lease payment required over the years.
    Ms. Norton. No missed payments?
    Mr. Catoe. No missed payments whatsoever. Transit agencies 
in other municipalities were in danger of losing hundreds of 
millions, if not several billions of dollars in taxpayer 
moneys. We came to Congress, and we also went to Federal court 
to block the effort of that bank to do so. We were successful 
to a certain degree in Federal court, and Congress has also 
been very supportive.
    We're in the process now, and we have unwind several of 
these agreements, and we have unwind those agreements for the 
moneys that were set aside for the payments, so no additional 
cost to the taxpayers. However, there are still multiple 
agreements here in WMATA as well as across the United States 
that have not been unwound. And there is congressional action 
pending to deal with those issues.
    Ms. Norton. Thank you. I'm very sorry you had to go to 
court on this one. It was a terrible situation.
    Mr. Chaffetz is back, and I am pleased to ask him if he has 
any questions. He's back in time to ask questions of this 
panel.
    Mr. Chaffetz. Thank you. My apologies for being away during 
the votes. I appreciate your indulgence and your understanding 
of my apologies if I'm hitting something that had been 
addressed while we were away.
    Mr. Catoe, there was a quote in there, a Metro statement 
that said ``will devote all of our resources'' to developing 
additional protections. Can you give me some reassurances to 
``will devote all of our resources'' and what that means, 
specifically?
    Mr. Catoe. Well, WMATA has limited capital resources, 
obviously. Our capital dollars are from Federal 5307 funds, the 
local jurisdictions' commit funds, and we have a capital 
budget. There are dollars that we have identified for various 
programs we plan on doing this year during the budget year. My 
comment was that if there is a recommendation that identifies a 
capital project or need within the agency to ensure the safety 
of our system for our customers and our employees, I will 
reprogram those dollars--or recommend to the board and move to 
reprogram those dollars to fund that program.
    Mr. Chaffetz. So as you get the first tranche of dollars, 
where do you anticipate spending that first set of dollars? If 
you had to prioritize maybe one, two, or even three, what's at 
the top of your list?
    Mr. Catoe. Safety and----
    Mr. Chaffetz. Can you be more specific than that?
    Mr. Catoe. Implementing the recommendations outlined by the 
National Transportation Safety Board. That's No. 1.
    Mr. Chaffetz. Now, my understanding from Ms. Hersman--and 
correct me if I'm wrong from what I heard--there have been 76 
recommendations along the way. How many of those have or have 
not been implemented, not just from this incident, but from 
past incidents?
    Mr. Catoe. If I recall, this is off the top of my mind.
    Mr. Chaffetz. Sure.
    Mr. Catoe. There are eight recommendations that have not 
been implemented, two from an investigation from 1996, and I 
believe six from a report in 2006. My numbers might be slightly 
off, but I believe there's 8 out of the 70-some-odd 
recommendations.
    Mr. Chaffetz. Ms. Hersman, is that your understanding?
    Ms. Hersman. Over the 7 investigations, we've issued 76--
and actually with our work yesterday, 77. And of those, there 
are only 10 that remain in an open status now. Eight of them 
Metro is continuing to work to address the concerns that we've 
raised; they address operating issues, track issues, equipment 
issues. Two of them are classified in an unacceptable status, 
and they deal with specific issues----
    Mr. Chaffetz. I'm sorry to interrupt you with our limited 
time, but just for the clarification of staff and myself and 
whatnot, can we get some sort of summary as to which ones have 
not been implemented and maybe some degree of justification as 
to why they were not?
    Let me move on in the interest of time here. I know time is 
short.
    Mr. Catoe, would you encourage riders to record and report 
negligent behavior? I mean, we've had a couple of those reports 
in the last couple of weeks. What would you say to riders? 
Would you encourage that, not encourage that? What should they 
do or not do?
    Mr. Catoe. I have encouraged that since the day I walked in 
the door. I would encourage any of our employees or customers 
who see an operation that they felt is unsafe or that would 
hinder the operation of this organization, to report that.
    Mr. Chaffetz. And how would you assess the morale, and what 
are we going to do to help those that are working hard and 
diligent, and do a good job? Obviously the morale maybe 
suffers. How would you assess that, and what can we do?
    Mr. Catoe. Well, any time you have an event in an 
organization such as occurred on June 22nd, the morale is low, 
but I can share with you also that employees that I have had a 
discussion with concerning the videos that most of us have seen 
on TV or YouTube are angry, angry at those workers because the 
overwhelming majority of our employees do an outstanding job of 
providing customer service. All it takes is one or two or three 
to ruin the image and the reputation of the entire agency.
    So morale, of course, is impacted by what occurred, but 
also, there is an anger of those individuals--those few 
individuals who obviously are not following our safety 
procedures and policies.
    Mr. Chaffetz. And finally, let me just ask you, one of the 
general concerns is the idea of implementing best practices. To 
the degree in which you are communicating with counterparts and 
others to implement those best practices and understand what's 
working and not working, but could you maybe address that and 
what you're doing and not doing in that regard and how we can 
perhaps improve that?
    Mr. Catoe. If I understand, the general question was the 
implementation of best practices, and we do. We have a safety 
officer that looks at best safety practices. Our operations 
staff look at best operations practice as defined by the 
industry.
    Mr. Chaffetz. How would you grade yourself on that?
    Mr. Catoe. I grade ourselves high. I have not thought about 
an A or a B in that regard. But again, I want to clarify the 
definition of best practices. One organization might say their 
practices are best; I might not agree, and therefore I will not 
implement those. But it is the best practices that have been 
certified through a process. We all move forward and we work 
toward implementing all of those if they apply to our type of 
operation.
    Mr. Chaffetz. Thank you.
    Thank you, Mr. Chairman.
    Mr. Lynch [presiding]. I thank the gentleman.
    I want to thank Ms. Holmes Norton for pinch-hitting for me 
again. I understand that the Rules Committee is still meeting, 
so that means Mr. Van Hollen and Mr. Connolly are both in the 
Rules Committee.
    However, I wanted to followup on one question. On the 17th, 
when the bond in the circuit that was malfunctioning was 
replaced, what was done right after that, Mr. Catoe, in terms 
of making sure that it was functioning properly? Is there a 
testing protocol that has to be implemented? Because it seemed 
to be at the heart of the problem.
    Mr. Catoe. Yes. The replacement was done on this circuit on 
June 17th, and at that time it was tested to ensure that it was 
working properly. Our records indicate that it was working 
properly at that time; the records I have seen.
    Again, monthly, we were running this test to determine 
whether or not there were problems with any of the circuits in 
the system. Postaccident, we did run that test, and it 
demonstrated that this particular circuit was fluttering over a 
period of time up to the accident itself and postaccident.
    Mr. Lynch. Yeah, I'm just wondering what happened 
immediately after you repaired the system on the 17th. I know 
you say your systems indicate that it was acting properly. What 
do you do to determine that? Do you run a bunch of test trains? 
Or tell me about that.
    Mr. Catoe. No. We do not run a bunch of test trains to 
determine if that particular circuit is running because we have 
3,000 circuits in the system, and we were going through a 
program to replace all of those circuits.
    The individual circuit is tested. And again, monthly we 
test the whole system. So we were in the process of not just 
replacing that circuit but other circuits on that line. And we 
did a site test on the circuit to make sure it was receiving 
the signals and connected properly.
    Mr. Lynch. And where is that operating from? Is that a 
manual test at the junction, or is it back in the operations 
room?
    Mr. Catoe. I believe it's a manual test at the site, but I 
am turning around to look at my rail expert to be sure.
    I was correct, it is a manual field test onsite.
    Mr. Lynch. Maybe, Ms. Hersman, you can talk about this as 
well: the more reliant we become on technology, I think the 
more important it is that we make sure that the technology is 
operating, because in this instance there was little indication 
of a malfunctioning circuit that had very grave circumstances 
for a lot of people. And this technology, we're becoming more 
reliant on it, and there are no fallback or fail-safe measures 
by which we can determine whether these things are still 
operating. You've got trains loaded with people, operating at 
high speeds, and we can't have this level of malfunctioning 
going on. We just have to be more vigilant about testing these 
safety systems to make sure they're working. We see the 
consequences of this today.
    But in retrospect, I'm probably a little surprised we don't 
have these things more often. I think we just take a lot for 
granted. And if we're going to rely on these systems to replace 
operator ability to override the system when it becomes 
necessary, then we have to make sure these systems work.
    Ms. Hersman, are you seeing a lot more of this in other 
systems as well? And does the NTSB have recommendations 
regarding the routine or the regular scheduling of these 
inspections?
    Ms. Hersman. I think the question you're asking has a lot 
of answers to it, and so one of the things that I want to make 
sure that we cover is, as Chairman Graham talked about, what 
happened after we identified that there were some problems. 
We've been changing out components. That particular impedance 
bond that was replaced, we looked at it with a shunt on the 
track, we looked at it with an exemplar train on the track, we 
replaced it with a brand new impedance bond, we replaced it 
with the old impedance bond that was in before. There are still 
intermittent failures; sometimes it's working, sometimes it's 
not, even with those changes. We've walked back the cable to 
see if there might be some cabling issues. There are a lot of 
challenges here, and we are changing out some components to 
identify what the problem is. That's why the work is still 
ongoing.
    But with respect to the redundancy, I think that's what 
you're raising, a vital system that everyone is relying on to 
perform; that's what our recommendation yesterday was about is 
to have a monitoring system so that you know when something 
fails. You've got to get an alert when something fails. If 
people are relying on that system to be vital, and 100 percent 
of the time it's got to be accurate, you've got to know when 
there's a malfunction or a loss of detection. They can do that 
now by looking back at their data.
    What we want is for there to be a realtime notification 
when that happens that there's an alert. So we've seen this on 
the pipeline side or on the aviation side. So, for example, if 
you're monitoring a pipeline, and you see a loss of pressure, 
the person who's monitoring that pipeline gives an immediate 
alert that is aggressive, and it grabs their attention so they 
can start shutting that pipeline down if they're having a leak.
    Air traffic control. If they have aircraft that are coming 
too close to the ground, they get a low altitude or alert on 
their scope. Those air traffic controllers are compelled then 
to tell the pilot, ``you need to pull up, you're getting low, 
there's terrain there.''
    What we want to make sure is that when the system itself 
isn't functioning the way it was intended, that there's some 
way to get notification about that so you can intervene.
    Mr. Rogoff. Mr. Lynch, can I just speak to one element 
about it? It doesn't have to do with the specific elements of 
the technology here, but it's really a more macro observation.
    Earlier, Mr. Davis talked about and identified $6 billion 
in deferred maintenance on the WMATA system. Nationally we just 
completed a study for just the seven largest rail transit 
operators, including the T in Boston, which indicates we have a 
$50 billion deferred maintenance backlog. That's just the seven 
largest systems. We're updating that study to even incorporate 
a larger universe of systems.
    But this is really a more macro issue for reauthorization 
because one of the things obviously we see in these studies, 
Metrorail is a comparatively young system, but the Red Line is 
the oldest segment. It's 33 years old. Even the newer systems 
are starting to age. And it makes the need to face the deferred 
maintenance issue sort of head on, because, as we can say 
generically, not in the context of this particular accident or 
any other one, but deferred maintenance issues, if deferred 
long enough, become safety issues. And that's an issue that the 
administration and the Congress is going to have to take on 
more broadly.
    Mr. Lynch. Thank you.
    I'm sure we didn't exhaust the full menu of questions to 
all of you today, but if there are some issues that you wish to 
amplify or hit on that members of the panel here have not 
asked, I would like to hear those. And, as I have said with the 
earlier panel, there are other Members here: Mr. Connolly, Mr. 
Van Hollen, Mr. Cummings, as well as Mr. Bilbray and Mr. Issa 
may want to submit some questions in writing, and so we would 
ask that you diligently respond to those questions, if 
possible.
    But I'd like to give you at least a couple of minutes each 
in closing to hit on the areas that you think are the most 
important going forward for the system to operate in a reliable 
and safe manner the way we all would like it to.
    Mr. Graham, you are recognized for 2 minutes.
    Mr. Graham. Well, I would say just very briefly, Mr. 
Chairman, that we need to have the probable cause of this 
accident identified, and we need to have a preliminary report 
from the NTSB. If it doesn't pinpoint the precise cause of the 
accident, it should at least describe the challenges we're 
facing because our experience, Mr. Chairman, is that there's a 
great deal of half information, misinformation, misleading 
information which is in circulation at the present time. This 
is why I took Delegate Norton's time a little bit to try and 
focus the issue because if we could just get the public to 
understand what it is that we're wrestling with at this point, 
I think that would go a long way in reassuring the public that 
we want that manual operation, we want 35-mile-an-hour speed 
limits on the Red Line, and it would also better focus the 
decision of what we're dealing with.
    Thank you.
    Mr. Lynch. Thank you.
    Mr. Catoe.
    Mr. Catoe. Thank you, Mr. Chairman.
    I believe many of the speakers today really, from a broad 
perspective, talked about the issues. As we look at public 
transportation now and into the future, there must be a balance 
of system expansion but with that expansion, an assurance that 
moneys are there to maintain the system.
    When we look at all capital programs, we can't just look on 
the side of what are we going to get new, and what type of 
celebration are we going to have because of a new line? But we 
must also plan for the maintenance of that line for the next 
decades into the future. This is a discussion that's going on 
within the industry today, the state of good repair of the 
organizations and the systems, and it is something that we must 
focus on.
    And finally, in talking about the aspect of oversight, 
oversight sometimes might be difficult because it takes time. 
But if oversight is focused on the safety of a system to ensure 
the safety of our customers, then I welcome that, and also to 
provide the necessary authority on the part of the agencies 
that have that responsibility to take action.
    Mr. Lynch. All right.
    Ms. Hersman.
    Ms. Hersman. I've heard many of the concerns that were 
raised here today by Congresswoman Norton and Chairman Graham. 
I will definitely take those back and take them to heart.
    We make many recommendations based on what we think is 
best. We don't have to consider cost-benefit analysis when we 
make our recommendations. And today we held a board meeting to 
determine the probable cause of an accident that occurred up on 
the Green Line in Newton, Massachusetts. We had an operator 
that was killed up there last year. We made a recommendation in 
that board meeting this morning for the Federal Transit 
Administration and for NBTA to look at putting positive train 
control on that line. We understand that's a cost constraint 
for them. The Green Line is the only line that doesn't have a 
form of positive train control on it. We know it's their oldest 
line up there, too, and that will be a significant cost to 
them, but we do believe that's what's needed to save lives.
    So we do make recommendations, Ms. Norton, and we don't 
have to pay for them. And so I do recognize the frustration, 
but our charge is not to do that part of it; our charge is to 
recommend what we think is in the best interests for the safety 
community. We are the conscience and the compass of the 
transportation industry, and they get to decide if or how they 
implement it.
    With respect to Chairman Graham's concerns, we do have a 
number of rail investigations that are pending, about 16. We 
will work very hard to get the cause of this determined. We 
have another NBTA accident. I was up on Mother's Day for 
another Green Line accident, and so we have many in the queue. 
But even if we don't complete a final report on the Metro 
accident, we will do as we did yesterday. When we identify 
safety issues that are acute in nature, we will issue 
recommendations to address whatever improvements we think need 
to take place.
    And so we recognize everyone would like us to determine the 
probable cause of the accident yesterday. We will work to do it 
as quickly as we can, but in the meantime, we will put out 
recommendations to address the issues we think we need to look 
at.
    Mr. Lynch. Thank you.
    Mr. Rogoff.
    Mr. Rogoff. Thank you, Mr. Chairman.
    I will certainly echo what Mr. Catoe said about the state 
of good repair. Ironically enough, both the FTA and WMATA had a 
scheduled roundtable for the whole Nation for transit operators 
on the state of good repair, which was planned several months 
before the accident, and we hosted it together just last week.
    I'm glad Member Hersman raised the issue of the Back Bay 
recommendation, because it's very telling on this whole issue 
about whether we need to reform the legal authorities as it 
relates to safety enforcement.
    The Board's recommendations to the FTA is to facilitate the 
installation of positive train control. The reason why it says 
``facilitate'' is because we are not allowed, by law, to 
mandate it. At the very same time, the Federal Railroad 
Administration is moving a regulation to mandate positive train 
control on the rail operators on the systems that they inspect 
and they have a legal authority over. So, it really brings to a 
head the legal issues we're raising here.
    Now, we talked a lot here about the FTA model versus the 
FRA model. And I want to emphasize that there are other models 
out there that may be appropriate for a reformed Federal 
Transit Administration. Within the Federal Motor Carrier 
System, the Motor Carrier Safety Administration, within 
pipeline safety, we provide Federal funds to State enforcement 
agents so they will be adequately resourced to not only enforce 
State regulation, but also Federal regulation.
    So we recognize the need to take a hard and fresh look at 
these legal authorities, but we don't want to just run out and 
say, we need to Federalize this right away. We will be back to 
Congress in a few weeks with a reform plan that tries to 
capture the best model for this particular industry that works 
with our State partners as best we can.
    Thank you.
    Mr. Lynch. Thank you, Mr. Rogoff.
    Mr. Madison.
    Mr. Madison. Thank you, Mr. Chairman.
    I would just reiterate from the SSO standpoint the need for 
funding and legislation that actually gives the SSO some 
authority.
    There are currently 27 SSOs throughout the country. I've 
met most of them, and they're really good people. We don't want 
to imply by anything that has been said today that the lack of 
authority means that there is a lack of effort on the part of 
the people who work in the SSOs. They work very hard with the 
resources that they have, and we try to make our systems as 
safe as possible.
    Mr. Lynch. Thank you. I want to thank you for your 
willingness to come before this committee and offer your 
testimony to help us.
    Just in closing, we all have a special responsibility here. 
Running a public transit authority is a very serious 
responsibility. We had nine people who went out to work one 
evering, like we all do every day, got on the Metro, and put 
their trust in the system, probably not giving it a second 
thought because of the level of trust that was built up in that 
system over the years. Because of failure in the system, 
members of the public were killed. Those families are dealing 
with those consequences, and there were dozens of riders that 
were hurt that day and still have not recovered. Those are very 
serious consequences when we don't run a system as well as we 
should.
    And so I think that everyone's heart and mind is in the 
right place on this, but it is a serious business. Hopefully, 
with the injection of resources brought in by Ms. Norton, by 
Mr. Connolly, Mr. Van Hollen, Mr. Hoyer, Mr. Cummings, and 
others, some of those needs will be met. But it will require 
our diligence to make sure that money is spent properly and 
that our priorities are what they should be.
    And we thank you all for the role in this that you play in 
making it safer for the riding public. We will just continue to 
work with you as we move forward and try to improve the system 
for everyone.
    Thank you very much. I appreciate your testimony today. And 
we bid you good day.
    [Whereupon, at 5:35 p.m., the subcommittee was adjourned.]
    [The prepared statements of Hon. Jason Chaffetz, Hon. 
Eleanor Holmes Norton, and Hon. Gerald E. Connolly, and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T2712.057

[GRAPHIC] [TIFF OMITTED] T2712.058

[GRAPHIC] [TIFF OMITTED] T2712.059

[GRAPHIC] [TIFF OMITTED] T2712.060

[GRAPHIC] [TIFF OMITTED] T2712.061

[GRAPHIC] [TIFF OMITTED] T2712.062

[GRAPHIC] [TIFF OMITTED] T2712.063

[GRAPHIC] [TIFF OMITTED] T2712.064

[GRAPHIC] [TIFF OMITTED] T2712.065

[GRAPHIC] [TIFF OMITTED] T2712.066

[GRAPHIC] [TIFF OMITTED] T2712.067

[GRAPHIC] [TIFF OMITTED] T2712.068

[GRAPHIC] [TIFF OMITTED] T2712.069

[GRAPHIC] [TIFF OMITTED] T2712.070

                                 <all>

</pre></body></html>
